    PATIENT DUMPING AFTER COBRA

      ASSESSING THE INCIDENCE AND THE PERSPECTIVES
                HEALTH CARE PROFESSIONALS





                      Richard P. Kusserow
                      INSPECTOR GENERAL




OAI- 12-88-00830
                                              AUGUST 1988
                                                  ......................................................
                                                             ...................
                                       ......... ................... .... ......                         ..................................................




                                                                                                                 TABLE OF CONTENTS


                                                                                                                                                                                                  Page

 EXECUTIVE SUMMARY

 INTRODUCTION....................................................................................................... 





 BACKG ROU ND




 OBJ ECTIVES..............

                                                                                                                         ........................................................................... 9
METODOlOG                                                  Y .............
                                                                                                .............................................................................. ........... 9
FINDI NGS

                                                                                                                         .................................... ...................................... j 2
RECOMMENDATIONS




APPENDIX 1
   State Intiatives in Patient Dumping Ara

APPENDIX 2
             Calornia Anti-Dumping Legislation

APPENDIX 3
   Agency Comments to the Drt Report
                                    EXECUTIVE SUMMARY
   PURPOSE

  The purose of this study was to gain additional infonntion
  patient dumping 1 1/2 year after the enactment of              insight into the issue of
                                                                  and
                                                  the Consolidated Omnibus Budget Recon­
  ciliation Act (COBRA) of 1985 which prohibited the practice. The inspection sought to deter­
  mine if objective measurment of the problem of
                                                   patient dumping could be made using
  existing reord and if perspectives of health care professionals identified vulnerabilties in the
   urnt process of identiyig and reportng alleged cases.
  The overa objectives of this inspection were to detennne:

        if records maintaned by hospitals reflected information
        incidence of patient dumping;
                                                                needed to assess the actual


       reportng practices and procedures
                                          in place at hospitas for referrng possible cass and
       complaits to the proper authorities; and

       the extent to which public hospitas continue to perceive patient dumping as a problem
       and their estimates of the
                                  fruency of  patient dumping at their facilty.
 BACKGROUND

 The COBRA included provisions that requir all Medcar-
 gency deparents to provide necessar medcal             p3rcipatig hospitas with emer­
                                                examations  and tratmnts to stabiliz
 dividuals with emergency medical conditions and women in active labor. After the patientin­
                                                                                          is
 stabiliz the hospita may provide for appropriate trsfer      to another facilty. The
also alowed for penalties if a hospita or provider violates                          COBRA
                                                              these antidumping provisions. In
adtion to COBRA, the Hill- BUrn Act of the Public Health Servce Act and varous
laws alo   outle the   respnsibilties of hospitas for                                      State
                                                        the car of the indigent
Recent arcles published in professional
dumping, suggest that the problem may continue to occur as newspaper accounts of patient
                                       jourals, as well
                                                        despite
                                                            Fedra and State effort to

prevent it In July 1987, the
                               Hum Resources and Intergovernenta Relations Subcommt­
tee of the U. S. House of Representatives held an oversight
                                                    hearg focusing on patient dump­
ing. Testiny focused on medcal problems which have resulted
                                                                frm role
patient dumping, economic causes for patient dumping, and the Federa alleged cass
investigatig such cases.                                                          in preventig and
METHODOLOGY

Emergency room (ER) and other hospita records for the month of October 1987 for all
patients trsferrd to the ER were subpoenaed frm 25
                                                        hospitas in 25 standad metropolita
areas (SMAs)   radomly selected with probabilty porportonate to size. The OIG
                                                                                   staf also
conducted telephone interviews with adistrators and
                                                        health care practitioners in 88 radom­
ly selected public hospitas which had 100 or more beds and were located in or near an SMA
to obtan their perspectives on the natue and incidence of cases of patient dumping.

MAJOR FINDINGS

     Curnt reord keeping by hospitas makes objective measurment
     dificult The hospitas in
                                                                        of the problem
                                our record sample of 25 could not uniformy or consistently
     identiy al patients trsferr     to their ER frm other ERs. Even if transferrd patients
     can be identified information contained in the record is
                                                              limited.

     Due to the diculty in objectively measurg the incidence of dumping, confusion
     exists as to the actual extent of the problem. Perceptions
    pratitioner. For example, the
                                                                var widely among health
                                    hospitas in our admnistrtor and
                                                                                           car
     88 could offer only anecdota estimates of dumping prevalence andpractitioner
                                                                      these       samle
    considerably. Of those hospita in our sample willng to                 diere
                                                           estiate the rate of dumping,
    25 (32 percent) report no problem at all with dumping, while 35 (45 percent) believe
    they curntly experience COBRA dumping at least once a month.

    A signcant number of hospitas (39 percent) in our
                                                      adnistrtor and practitioner
    sample of 88 did not have procedurs or reportg mechanisms to
    patient dumping when it occur. Hospitas seem                 effectively deal with
                                                  unawar of mechanisms for the proper
    reportng of dumping incidents. When they
                                                  ar awar of such mechanisms, they
    reluctat to use them.



    Prctices persist, such as the diversion of patients en route
                                                                 durng ambulance
    trsprttion; the referr of patients to another facilty without     makng a reord of
    their reuest for tratmnt at the primar facilty; or
                                                          the trsfer of patients citig
   inabilty to trat the patient properly,
                                         when the facilty in fact appear equipped to
   for the patient These pratices, at miimum, subven                                 car
                                                         the intent of COBRA even though
   they may not  ditly  violate its provisions.

   In the absence of statistically reliable information on this problem, the
   Health and Human Servces                                              Deparnt of
                                (HS) must rely heavily on hospitas to file complaints
   unde Hi- Buron and COBRA. Given the lack of reord           keeping and reponing by
   hospitas, as documented in ths report, the abilty of
   prblem is jeoparzed
                                                          IfS to monitor and overse this
   RECOMMENDATIONS

        Reportg of suspected cases of patient dumping should be made a condition of
        parcipation in the Medcare progrm or par of a hospita'
        to incrase reponing. This recommendation was communicateds provider agrement in order
                                                                       to the Health Care
        Financing Admistrtion (HCFA) in an early alert on this subject. The HCFA has
        accepted this recommendation and included it as a
                                                          requirment in the IfS regulations
        on dumping issued in June 1988.

        In view of the reliance on refeITals from patients and hospitas to enforce
        HCFA and the Offce for Civil Rights (OCR) should use existing authoritytheir   authority,
                                                                                   to require
        and ensur that hospitas post notices such as the ones
                                                                  curntly posted in California
        hospitas and those    provide by OCR to Hill- Buron facilties. All
        Medicar-parcipating hospitas and all Hill- BUron facilties should post
        their ERs which (1) inform patients of their rights under COBRA and Hil-notices in
        (2) indicate a local or toll- free number to call with complaints.          Burton and

       The COBRA regulations should requir that
       trsferrd patients to and frm other ERs. Alallpatients
                                                     ER record clearly identify all
                                                             should be asked
       an ER if they have sought tratment                                       upon arval at
                                            elsewhere.


       Dirt outrach to professional associations should be pursued by the
       respnsible for COBRA and Hill-BUron compliance with increased vigorprogrm aras
                                                                             in order to
       incrase awarness and stimulate proper
                                             reportg by     health car professionals.
      The HCFA should move to clarfy the defInition of
                                                         what constitutes " stabilzation " and
       emergent condition, " as the American College of Emergency Physicians    (ACEP) has
      done, in the COBRA regulations or though propose legislation
      physicias ' reponsibilties under COBRA. To the extent           in order to clary
      tae place with OCR to assur that the                    possible, coordiation should
                                            Deparent
      when enforcg its authority in this ara.
                                                        uses a common defmition of terms


AGENCY COMMENTS

Comments to the drt report were received
                                           frm HCFA , OCR and the Public Health Service.
Although ther was genera agrment with
                                           the report findigs and recommendations, HCFA
expresse reseation concerng our recommendationss for
                                                            incrased record keeping and fu­

ther defition of crtical terms. Our findings indicate that action
                                                                   nee
                                                                  is
reommendig that HCFA tae these steps to strengten the Deparent and we ar agai
the COBRA provisions. Agency comments                                   s abilty to enforce
                                           ar contaed in appendi 3.
                                         INTRODUCTION

  BACKGROUND

  The pratice of patient dumping-- that is, the trsfer
                                                     of unstable patients or refusal to render
 emergency tratment to patients based on grounds unrlated to need or
 provide services-- has become a serious concern in recent years. Some the hospital' s ability to
                                                                       expens assert that, due
 to incrasing fmancial pressures to maitain profitability
                                                          and reduce costs and the increasing
 number of uninsurd or underisurd Americans requesting access to health car
 tuing away or trsferrg large numbers of indigent and                             , hospitas are
                                                            uninsurd people from their
 emergency roms   without appropriate medical evaluation. Estites of
                                                                      the national
 fruency of 2 although
             patients transferr for economic reasons have been placed as high as 250,
                          such estimates
 cases anually,                          ar statitically unsur.
 In some cases, the denial of care results in die consequences for
                                                                     the individual. Concerned
 members of the medical community, famly members and
                                                              frends, and patient advocates from
 acoss the countr have reported deaths and serious ilness resulting
 tratment. One Tennessee woma, for example, related the story of her    frm denial of emergency
                                                                             diabetic neighbor, a
 young carenter, who was " physically removed" from an emergency room (ER) due to an in­
 abilty to pay for services and strded in
                                             the hospita' s parkig lot after
 an ambulance on his doctor s orders. He died the following day at home.arving        at the ER in
                                                                              3 Such practices
 have sti     considerable debate in the medcal community concerning the proper
 and respnsibilty towar indigent or other undesirable patients. In adtion
                                                                                       tratment of
 governnts have both                                                             , Fedra   and State
                          ma   effort to provide protetion for persons who sek emergency
room car    regardless of their abilty to pay.



Federal Efforts

The fIrst Fedra effort in this ara was the community servces provisions included in the
Buron Act of the Public Health Servce Act, 42 U.                                        Hi-
                                                   C. 216, 300-4 and 3001(6) (titles VI
and XV in 1979. The reguations implementing the
                                                    community servce         assurces apply to
al hospitas that reeived Fedra assistace under the Hil-
                                                            BUrn Act which was enacted into
law in 1946. The act authori the appropriation of funds,
                                                             chaneled thugh the States, for
the constrction or modrntion of hospitas and other health facilties.
vice assurces prohibit Hi- BUron hospitas frm denyig                       The community ser­
                                                             emergency servces to anyone
who resides in the hospita' s servce ara (title VI of
                                                      the Public Health Service Act). Hospitas
that have reived Fedra assistace under title
                                                 XV ar also requird to provide emergency
servces to peons who wor in the hos ita' s service
                                                        ara. Unlie the " fr car obligations




The'ifp tie of:H a1thanQHtimaif           Semce-s(HS),OfceforCivilRightS.
                                                                                  (OCR) iSS
 spn' sible:for:enfOIing thl:(:oJ'rnw,i     oocc:assurcescof the Hi.;BUron Acm However,
some dificulties have ben   documented    concerning OCR' s effort in this ara. For example,
   OCR has been crticized for not rovidi
   their obligations.




   The second Federa effort to assur emergency services for all those that seek such care was
  enacted in Apri 1986 (effective August 1986) in the Consolidated Omnibus Budget Recon­
  cilation Act (COBRA) of 1985, which amends title
                                                        xvm of the Social Securty Act. The
  COBRA reuirs al Medicare parcipatig hospitas with emergency
  provide for an appropriate medcal screning for                           deparents to: (1)
                                                    patients presentig themselves for tratment
  to determne if an emergency medcal condition exists or
                                                             the person is in active labor; and (2)
  if such an emergency condition or active labor exists, provide
  capacity or trsfer the patient to another facilty for           tratment with the hospita'
                                                        tratmnt under the followig restrctions:

               The patient must be stabilzed, unless a cenification has been signed by the
               physician attstig that the benefits of a trsfer outweigh
                                                                          its risks.

               The reeiving hospital must have the necessar space and personnel to effectively
               trat the patient



               The reeiving hospita must be    notified of the trnsfer, and must accept the
                                                                                              trsfer.
               Medical record must     accompany the patient

               The trsfer must be    effected with proper trsportation   equipment and qualfied
              personnel.

The COBRA alo provides        for    termation or suspension of Medicar provider agrements if
violations of the proviion
tion of civi
                              ar    knowingly and  wiy,    or negligently violated and the
            moneta penalties agaist the hospita and/or respnsible                imsi­
proviion is knowigly violate In adtion, individual and            physici(s) wher the
civi action    agaist a referrg
                                                          reeivig hospitas may bring a
                                   hospita which   violates the provisions of COBRA, and obta
dages for peonal har or fiancial loss.
Although simar to reuiments include under the Hil-
rage of applicable providers, as well as the services
                                                          BUrn Act, COBRA broadns the
room. As note above, remedes available under Hi-
                                                      requi to be rendere in the emergency
lite                                                   Buron to engender
         to volunta measurs and possible referr of the hospita to the U.compliance
                                                                          S. Deparent of
Justice, which can sue for specic performance. The COBRA
spifc enforcement and remedes for violators, including the ,imposition
                                                               conversely, provides for more
                                                                         of
                                                                            civi money
penalties (CMPs).
  Th IfS components are involved in compliance and enforcement activities of the Hill- Bur-
  ton and COBRA provisions: the OCR, OIG, and Health Cae Financing
                                                                              Admnistrtion
  (HCFA). Overlap does exist between agency authority generated in par by the
                                                                                    inherent
  lap of the statutes. For example, if a hospital that dumps a patient has obligations under over­
  BUron and parcipates in the Medicare progr, all thre                                       Hil-
                                                               agencies would become involved
  with investigating the complaint.

  Other Efforts

  In adtion to the above-referenced Federa efforts, at least 23 States have enacted statutes or
  adistrtive regulations to addrss provision of emergency car for the indigent or unin­
  sur    As the table in appendi 1 indicates, State initiatives in
                                                                   ths ara var broady in terms
 of defming an emergency, coverage of pregnant women , and provision of remedy      for viola­
 tions. Many do not conta remedes at all for violations. However, some States have in­
 stituted requirments that ar strcter than those imposed
                                                            at the Federal level.
 The strctest State antidumping statutes are found in
                                                        Calforn New
                                                                  York, and Texas. 5
 Calornia s is parcularly extensive. and merits some detaed discussion here. Under Calor­
 nia law, patients must sign " informd consent   " form which outline " the reasons for trsfer or
 refusal to provide emergency services and car and of
                                                         the person s right to emergency services
 and car prior to trsfer or discharge without regar to
                                                           ability to pay. ,, 6 The State of Caor­
 nia also
          reuies  that notices be posted in all emergency  roms informg patients of their
 rights to emergency car. (Curntly, OCR provides such notices to its Hill-
 but HCFA does not requi postigs
                                                                                   Buron facilties,
                                        in al Medicar- parcipatig facilties.                  trs­
fers must be filed with the State. Receiving hospita personnel must report )violations.
                                                                              Records of
                                                                                        Finally,
the law reuis that " as a condition of licensure, each hospita
                                                               shal adopt, in consultation
with the medical sta, policies and trsfer protocols consistent with this
tions adopted hereunder. " 7 A copy of the bil adopted in September 1987 arcle   and regula­
                                                                          and enacte on
Januar 1 , 1988 by the State of Calfornia is
                                              contaed in appendi
Other States, whie not matching Calfornia in scope of coverage, have also enacted
provisions of interest. For example, the State of Michigan                             laws with
                                                             s antidumping statute includes a
prohibition agaist ambulance diversion: " An ambulance operation, or a
                                                                          limite advanced or
an advanced mobile emergency car servce shal provide
                                                            emergency car consistent with its
license to al patients without prior
                                     inquir into abilty to payor soure of paymnt " 8 Mis-
sour and Uta include psychological or menta emergencies in their coverage of emergency
servces to whih the indigent will have access. Uta defines emergency medcal services to
mean " seces use to respond to perceived individual needs for
                                                                    immedate medcal car in
order to prevent loss of life or aggrvation of physiological or
                                                                psychological illness or injur. ,,
Wisconsin' s law,   lie that of Massachusetts, specifically prohibits delays in tratment: "
hospita providig emergency services may delay emergency
son unti
                                                           tratment to a
           crt checks, fmancial information forms or promissory notes have
                                                                               injur per­
                                                                               sick or

complete or signed if, in the opinion of one of the followig,              ben initiate
                                                                   is an employee, agent or
                                                                 who
sta member of the hospita, the delay is likely to
                                                    cause incrasd medcal complications, per­
   manent disabilty or death: (a) a physician, registered nurse or emergency medical technician
   advanced (paramc); (b) a trned practical nurse under the specific
                                                                            diction of a physician
   or registered nurse; or (c) a physician s assistant or any other person under the specific
   tion of a physician. ,, 10   The Wisconsin law also requirs                                        diec­
                                                           that hospitas establish wrtten proe­
  dures to car out this diective. Furer, each hospita must create a plan for
  the hospita cannot provide car and the S tate wil identify                    referrs when
                                                             the ER capabilties of each hospita
  and update the list annually.

 The Texas antidumping law has been used as a model for
                                                           severa States and for the Federa
 COBRA legislation. It prohibits the refusal to provide diagnosis or
 warts to any person based on age, sex, physical condition or economiccar if the diagnosis so
                                                                             status. The Texas
 law defmes emergency servces to mean " services that
                                                        ar usualy and customarly
 the respetive hospita and that must be provided imediately to susta a person available at
                                                                                     s lie, to
 prevent serious perment disfigument or loss or impaient of
                                                                    the function of a boly
 member or organ, or to provide for the car of a woma in
                                                            active labor if the hospital is so
 equipped and, if the hospita is not so equipped, to provide necessar treatment to
 woman to trvel to a more appropriate facilty without undue risk of a serious har.alow " 11
                                                                                             the

 In adtion , at least five States-- Florida Massachusetts, New Ie
 Caolina-- have established " indigent pools " which fInance health ey, New York and South
 relieve the fiancial burden impose on hospitals                    car for the poor and help to
                                                     carg for such patients.
 Medical expert agr that the need to provide an appropriate medical evaluation of the patient
 prior to trsfer is crcial if the patient s well- being is to be ensured
 condition necessitates tratment prior to effectig the trsfer             If the patient s mecal
                                                                 , appropriate servces must be
 provided Severa professional medical organizations have adopted policies which underscore
 the need of the medical professional to provide such
                                                        car. 12 The American Medcal Associa­
 tion (AM) has adopted a position indicatig that al physicians
                                                                     and health car facilties have
   mor obligation to provide        neemedcal car to al those who seek it regardless of their
 abilty to pay. Furermore, the AM supports the              position that an interfacilty
                                                                                              trsfer should
tae place   onl ifit is done/or the patients best    interest.        Also, the trsfer    should tae place
only if both the transfeng and reeiving physician                consent to the
                                                                                trsfer;   and, the
reommende that interhospita trsfer agrments be worked out at the local level.
The Amercan College of Emegency Physicians ' (ACE) policy
AM' s, but, une the AM , spcifies that the patient should be statement is simlar to the
The ACE also prvides mor detaed infonntion regarng               stabili prior to trsfer.
                                                              appropriate trsfer, and stabilz­
ing steps which should be taen prior to trsfer. 13
                                                   These steps include: establishing an ade­
quate aiay and ventiation , controllng bleeding, splinting
stag                                                        factus, tang vita signs, and
        intrvenous medcation or initiatig bloo replacement.

The ACEP has also provide a detaed descrption
                                                      of what constitutes a medcal emergency:
 ( 1) any condition resultig in admssion of
                                              the, patient to a hospita or nuring home within
24 hour; (2) evaluation or repai of acute
                                            (less than 72 hour) truma; (3) relief of acute or
severe pai; (4) investigation or relief of acute infection; (5) protection of public health: (6)
  obstrtical crisis and/or labor; (7) hemorrhage or theat of hemorrhage; (8) shock or impend­
  ing shock; (9) investigation and management or suspecte abuse or
                                                                     neglect of a person which
  if not interrpte could result in temporar or permanent physical or psychological
                                                                                    har; (10)
  congenita defects or abnormalties in a newborn infant, best managed by prompt intervention;
  (11) decomposition or theat of decomposition of vita functions, such as sensorium,
 tion, circulation, excretion, mobilty, or sensory organs; (12)                        respira­
                                                                maagement of a patient
 suspecte to be suffering from a mental illness and posing an
                                                                apparnt dager to the safety of
 himself, herself, or others; and (13) any sudden and/or serious symptom which might indicate
 a condition which constitutes a that to the patient s physical or psychological well-
                                                                                       being re­
 quirng imedate medcal attention to prevent possible deterioration,
                                                                        disabilty or death. " 14

 Both the American Hospita Association (AH) and the Joint Commssion on Accredtation
 Health Car Organizations (JCAHO) support the position that patients should not be


 receiving hospita consents to the trsfer.
 trsferr aritry. Both AH and JCAHO indicate the
                                                           deision to trsfer should
 medcaly permssible (the patient is stable), and the trsfer should be


 Prvious studies of patient dumping. have been conducted by medcal and
                                                                      made only afer the


                                                                                          Hi­
                                                                             health expert.
 melstein and Woolhandler 15 conducted a study in a large urban
                                                                ara, examing     trsfers
 frm private to public hospita emergency roms. The study found that trsfer seems to "
 age patients into the public setor bas on fmancial and socal factors.                    tr­
                                                                       " The authors also
 note that of the 458 conseutive patient trsfers studied 33 of the patients
 dad car either beause of potential complications that could arse
                                                                            reeived substa­
 tratment was delayed They adtionally found an absence of mecal
                                                                      durg trsit,
                                                                              or beause
                                                                    reasons for the trsfer
 to the public hospita emergency rom suggestig the reason for
                                                              trsfer was economic.

Schiff and Ansell 16 conducted a similar study of patient
                                                            trsfers to a public genera hospita
 in a lare uran ara. The researhers examned reasons for patient
                                                                    trsfers, whether the
patient was adtted to the intensive car unit, length of stay, and outcome, among other fac­
tors. The researhers found that the reason for trsfer in
                                                          87 percent of the cases was lack of
insurce. Seventy-   th   percent of the patients were  adttd   to the surgical servce, and 27
percent adtted to the medcal servce. In adtion, of the char the researhers were able to
review, 24 percent were classifed as being in an unstable condition upon arval
fer proess resulte in an average delay of tratment of 5.                        , and the trs-
                                                         1 hour.
The authors estite that durg 1983, nonrimburable costs shifted to the public hospita
frm private hospita for the car of trsferrd patients totaed $24. 1 milion dollar, or 12
percent of the hospita' s opeting budget This cost estimate, the authors note, represents
costs attbutable only to those patients
mecal servce and not other aras
                                       trsferr  and adtted to the surgical service or
                                   such as obstetrcs. The estimate alo does not include
patientstrsferr     that were not adtted The authors state: " If our patients
                                                                              ar repre­
sentative of medcal and surgical emergency- deparent trsfers in
                                                                     other aras of the
countr, extrpolation to a national level suggests an annual cost shift of
of dollar from the private to the public sector. " 17                     hundr of milions
 In July of 1987, the Human Resoures and Intergovernmenta Relations Subcommttee of the
    S. House of Representatives held an oversight hearng focusing on patient dumping. Tes­
 timony was hear from victis of patient dumping, patient advocacy groups, and repre­
 sentatives frm HHS. Testimony focused on medical problems which have resulted from
 patient dumping, economic causes of patient dumping, and the Federal role in preventing such
 cases.

  The subcommttee was parcularly interested in HHS'
                                                        effort to implement the COBRA
 provisions and enforcement efforts of existing laws prohibiting patient dumping. The Ad­
 miistrtor of HCFA testied that HCFA had sent interim operatig instrctions to
 regional offces (ROs) detaig what actions the regions should                       their
                                                                  tae upon receipt of a patient
 dumping complait. Also, it was noted that the regulations
                                                            formaly implementing the
 COBRA provisions (the COBRA provisions were self-
                                                       implementig) would be published
 soon. A Notice of Prposed Rulemag (NPRM) was eventualy published in June 1988 con­
 taning drt regulations.

In Mach 1988, a report descbing the patient dumping problem as pervasive and
IfS'                                                                          crtical of
     actions to date in this ara was. published by the House Commttee on Government
Oprations.

OBJECTIVES

The purose of this study was to gain adtional informtion and
                                                                insight into the issue of
patient dumping 1 1/2 year after the enactment of the Comprehensive
                                                                     Omibus Budget
Reconcilation Act of 1985, which prohibited the practice. The inspection  sought to detennne
if objective measurment of the problem of
                                           patient dumping could be mad using existing
record and if perspectives of health car professionals identified vulnerabilties in the
process of identifyng and reportng aleged cases.                                     curnt
The overa objectives of this inspction were to detennne:

          ifreor mataed         by hospitas reflected information neede to
                                                                           assess the actual
          incidence of patient dumping;

          reportg pratices and procedurs in place at hospitas for referrng possible
          and complaits to the proper authorities; and                                cass

         the extent to which public hospitas continue to perceive patient dumping as a
         problem, and their estiates of the frquency of patient dumping at their facilty.
  METHODOLOGY

  Records Review

  In order to obtai objective information and attempt to statisticaly determe the prevalence
 of patient dumping under COBRA , OIG subpoenaed emergency room records for a
                                                                                     radomly
 selected month (October 1987) from 25 large (300 beds or more) public and nonprofit hospi­
 tas in 25 SMAs radomly selected with probabilty proportonate to size. The
                                                                                subpoenas re­
 quested (1) any and al emergency rom logs or other ER records for the month of October
 1987, which indicate those patients who were trsferrd from other hospitas to the ER for
 tratment; and (2) any record indicating the payment status
                                                             (Medicar, Medcaid, commrcial
 none or other) for each of the patients identied as having ben transferred
 ta to the ER for tratment durg the month of October 1987.
                                                                            frm another hospi­

 The purose of this effort was to obta     information regarding the hospita' s        abilty to identiy
              (i. e., patients trsferred
 patients at risk                          frm other hospitas with a payment status of
 Medcaid or none) and to then reuest medical record for those patients from the
                                                                                trsferrg
 and reeiving hospitas. Those reords would then be reviewed by a physician panel to deter­
mie the stabilty or instabilty of the patient upon   trsfer.

Penpectives of Health Care Professionals

In order to obta hospita perspectives on this subject, OIG sureyed adnistrtors and pra­
titioner in 88 hospitas concerng pratices and experiences in connection with patient dump­
ing. The hospitas were selecte    radomly frm the univers of 581 Medcar- parcipatig
public hospitas contaning at least 100 beds locate near stada       metropolita aras(SMAs).
One hundrd hospitas were selected. Of those 100, 4 declined to respond to our
                                                                                surey; 5 did
not offer emergency servces and were therefore drpped from the sample; 2 could not be
reached and 1 was a for- profit hospita erroneously include in the sample. Consequently, 88
hospitas comprised our study sample. Fifeen of these hospitas
                                                                 ar locate in the Norteast
(HCFA regions 1 , 2, and 3); 26 ar in the South (HCFA region 4); 28 ar in the Midwest
(HCFA regions 5 and 6); and 19 ar   in the West and Southwest (HCFA regions 7, 8, 9, and 10).
Inteews were     conducte by telephone by OIG sta in Dalas, Texas; Baltimore,
and Washigtn, D. C. Intial contat cals were mad to the hospita                     Maland;"
                                                                      adstrtor, who was
inored of the reasn for our cal and asked to designate someone to whom we could
questions. In 11 percent of the cases, the adnistrtor
                                                       indicated that he/she would like to
                                                                                               dit
respnd. Th-         th peent   designated  another member of the hospita adnistrtion (As­
sistat Admstrtor Admstrtor for Financial Servces, etc. ) to respnd;         47 percent desig­
nate an emergency rom Medcal Dirctor; and 9 percent designated an
                                                                         emergency rom
head nur. In most cass, follow-up cals were made to the designated respondent
adtrtor                                                                             afer the
              had the opportnity to inform the designated contact to expect our call.
The intervew took approximately 20- 25   minutes and   concentrted on the following aras:

          existence of proedurs in . ER to deal with cases of patient dumping;

          existence of trsfer agreements between responding and neighboring hospitals
          outlining procedurs for the appropriate transfer of patients;

          the OCCWTnce of instaces of COBRA violations (Le., emergent or active labor
         patients transferrd to the respondent s hospital who were not provide medcal
         screning at the sending hospita; who were transferrd without a medcal
         cenification that benefits outweigh risks or the patient requesting the
         were trnsferr without advance notice by the sending hospita; who
                                                                                 trsfer; who
         without medical record; or who arved
                                                                                  arved
                                                  without proper trnsportation or   medcal
         equipment);

         rate of COBRA dumping experienced; and

         experience with ambulance diversions.
                                             FINDINGS

 Cun-ent record keeping practies     by   hospitals make objective measurement of the probkm
 of patent dumping diffcult. For     example, the hospitls    in our record sample of            25   could
 not uniformly or consistently identify all patents transfen-ed to the emergency room.

 Severa hospitas could not identify transfeITed patients at all without a case by
                                                                                              cas review of
 the record. Some hospitals can only identiy those that    were trsfeITed    admtted. Some
                                                                                        and
 hospitas define trsfers to include refeITals frm private physicians, nuring homes, or
                                                                                       other
 health car facilties--not just other hospitas. Insurce infonntion was not always
 or if obtaed confirmed, parcularly for nonadmtted patients.
                                                                                    obtaied

 For example, one Chicago hospita responded to our subpoena that " the information which is
 curntly collected on our (ER adssion) logs does not include patients trsferrd from
 other institutions. The only way to obtain that information would be
                                                                      a retreval of 2801 (in­
 dividual) medcal record for the month of October 1987. " One Connecticut hospita worker
                     trsferr
stated that " patients          and then discharged ar lost frm our system. " The ER logs
we reeived did not tyically conta ' a column for referr or trsfers, or even
                                                                                  for payment
soure. Payment sour e inormation on the ER records themselves
                                                                     was oftn blan or did not
refer to a policy number, thereby bringing into question the actual existence of the policy
by the patient.
                                                                                            cite

None of the hospita in our sample mata trsfer log of any kid, such as
                                                                          the one ma­
taed at Cook County Hospita and use by Schif and Ansell in their stUdy of trsfers
reeived at that facty.

As a result of this inabilty by hospitas to identifytrsferr   patients, the abilty of OIG,
HCFA, or OCR to conduct efficient compliance reviews may be jeopardi Bas
                                                                                      on this
rmding, we reportd the results of our record review to the regional
                                                                    dictors of OCR and
HCFA and inormng them of the spific fidigs of the reviews conducted in hospitas in
their regions. We noted among other things, that improved record keeping is necessar in
ordr to ensur the abilty of the Deparent to conduct effcient compliance reviews and that
those reviews might have to consist of a system- wide approach in order to fully
                                                                                 understad
thepatt    of refeITs and trsfers among hospitas in a given geogrphic ara.

A prospectiv   da colkction method (such as that used by Schif and AnseQ) may be the
only way to accurately count and identify transfen-ed patents at selected fadlities.

We wer unable, based on the inormtion provided to us by the hospitas, to
                                                                         identiy accurte­
ly the unvers of patients trsferrto those hospita frm other hospitas ' emergency
roms. Consequently, we did not underte the seond par of our reord review, which was
to involve the review of medcal reord by a physician panel. Therefore we
ti                                                                       canot at this
     make any judgment concernng the extent of a dumping problem at these facilties, or                 the
unvere of   hospitas at lare.   Bas on our experience, it appear that considerable time and
  resoures would be requir to obtan this information on a national
  no one has yet underten
                                                                   level.      To our   knowledge,
                             such an effort


 Even if transfen-ed patnts    can   be identified, infonnaton contained in the record is limited.

 Many of the ER record sent to us do not indicate if prior approval to
                                                                        trsfer the patient was
 obtaned, or if medical record were sent with the patient, and it is not clear if records
 trsferrng facilty will                                                                   frm the
                          indicate these facts or not.Addtionally, this approach wil not iden­
 ti  those patients who were tued away at a private hospita without medcal
                                                                                   scning and
 told to drve themselves to the public hospita' s ER , or patients diverted en route (both vul­
 nerabilties identied by practitioners in our telephone interviews and
                                                                          discusse later in this
 report).

 Due to the diffculty in objectively measuring the incidence of dumping, confusion exists as
 to the actual extent of the problem. Perceptins var widely among practitioners as to the
 extent of dumping at their facilites.

 Seventy-eight of the 88 respondents in our telephone sample of
                                                                  adnistrtors and pra­

titioner were  wig    to estite the amount of dumping at their facilty. Responses vared
widely. For example, 25 (32 percent) of these hospitas report no
                                                                  problem at al with dump­
ing. However, 35 (45 percent) report they curntly experience
                                                                reeiving trsfers in viola­
tion of COBRA    stada    at least once a month. Ten hospita (13 percent) report
experiencing five or more cass in violation of COBRA a month. Some of those
reportg problems cited specifc cass. A Texas hospita pratitioner
                                                                              hospitas
                                                                   descrbe two: "
woma about to have a baby was sent acss land,        then by ferr, to us from a nonprfit hospi­
tal. She left there six centieters                         praticaly at our doorstep. (In
                                     diated and had the baby
another cas), an older male went to his local hospita for a hear problem, medcation was not
provide and was    told to drve to (us). He anved with acute myocaral infartion.

Twenty-one of the 88 hospitas in our sample (24 percent) report reeiving
                                                                          emergent or ac­
tive labor trsfers frm ara hospitas who had not been medcaly scrned
                                                                         before trsfer.
Twenty- five (28 percent) reported trsfers anvig without
                                                           mecal certcation or at the
patient s reuest Twenty-six (29 percent) reported trsfers arvig
                                                                  without mecal record;
23 (26 percent) report patients arving without proper
                                                       trsprttion or medical equipment.
By far the most report prblem, identied by 50 hospitas (57 percent), was the lack of ad­
vance notice by the sendig hospita.

For our sample the mean number of dumps per month reported was 3.
                                                                   9. However, as indi­
cated above, ther was wide vartion in the responses, ragig frm
                                                                  zero (report by 25
the hospitas) to as much as 105 (reponed by one hospita). We did not
                                                                     veri these estimates.
 Many hospitals do not have procedures or reporting mechanisms to effectively deal with in­
 cidents of patent dumping when they occur.

 Many hospita (39 percent) do not have proedures that addess proper handling of inap­
 propriate trsfers received in the emergency room. Of those saying that they do have proce­
 durs, 33 percent state that they ar not wrtten.


 Overal, 25 (28 percent) of the hospitals indicated that they do not or would not report
                                                                                           insta­
 ces of patient dumping. Of those indicating they would report such instaces, 35 (57 percent)
 indicate their own hospita adistration as the highest level to which they would report.
 Only 11 percent indicated they would report to the State surey   agency,   the contact point en­
 courged by HCFA.

 Twenty- th  of the 35 hospitas which indicated that the highest level of reportng was their
 own hospita admstrtion also reported problems with dumping. Follow-up calls were
 mad to these 23 hospita adnistrtors to determe if they reported cases outside of the
 hospita once alerted by their ER sta of a possible violation. Only
                                                                    the routinely fie com­
 plaits with State or   Federa authorities.

Hospital seem  unaware of mechanisms for proper reportng of dumping incidents. When
they are aware of such mechanisms, they are reluctant to use them.

        We usualy just cal and fuss at them (the sendig hospita) when inappropriate trans­
       fers ar mad. Other than that, no reportg is done. I'm just not sur who to
                                                                                       go to. "
       (Albam hospita)
       'We would handle it between hospitas. We avoid puttng negatives in wrting.
       (Forida hospital)

       COBRA puts the major responsibilty of reportng on the reeiving
      tis, there is not the tie nor the sta to monitor this. " (Oklahoma hospita)
                                                                             hospita. Often



A subsample of hospitas (29 of the 88 hospitas in the tota sample) were asked to
                                                                                  explai or
voluntee why they did not report incidents of patient dumping to State or other authorities.
Eighten--al hospita adistrtors-- indicated that they were not awar to whom such report­
ing should be ma.    Two indicate that they prefer to work out such mattrs between hospi­
tas rather than involvig a thir
                                par. Nine indicated that they " didn' t know " why reponing
was not mad to State or Feder authorities.

One hospita also note that the responsibilty for reponing violations reste in
                                                                              receiving
hospitas. Such reportng would
                                reuir  proper monitoring and record keeping, as well as fol­
low up wor which expend resoures in short supply.

Curntly HCFA dos not reui hospita to post notices in their emergency roms inform­
ing patients of their rights under COBRA and indicating a number to
                                                                      cal in the event a viola­

  tion has occured. The OCR provides notices to Hill- Bunon facilties to post in
                                                                                    ERs and busi­
  ness offices statig, " Notice--   This Facilty      Obligated to Serve the Community.
                                                   is Legally
 The notice explains that the facilty cannot deny emergency services, if it provides
                                                                                     them, to
 any person who need them but cannot pay. However, the notice does not provide a number
 to call in the event a person has a complait.

 Practies persist which    may subvert the intent of CO BRA alhough not directly violang its
 provisions.

         Patient dumping is well hiddn. Outlying hospitas usually come up with an
         appropriate ' medcal reason to trsfer. " (New York hospita)

         Hospitas ar gettng around COBRA by not mang an ER char when a patient ar­
       rives or when the patient is discharged frm the ER and told to go someplace else.
       (Mississippi hospital) 


         Pur   dumps have decras. But now there s a lot of gray aras. The trsferrg
       hospita says they can   t take car of the patient, but they get here and in our judgment
       the sendig hospital could have in fact taen car of them. We don
                                                                              t report these be­
       cause it is an ara of physician judgment, a gry ara. It seems that dumping
                                                                                         contiues
       but trsferrng hospitas ar carful to disguise the real reasons for the trsfer.
       (Forida hospita)



        What is lielyto happen is that the paredcs who must take an emergency case to a
       hospita perform an informal trage of which ' socioeconomic status
                                                                         ' is a par, before
       selectig a receiving hospita. " (California hospita)



 A numbe of respondents offere the opinion that hospitas ar " gettng around" COBRA by
 diverng patients durg ambulance trsporttion, trsferrng patients they maita ar
bil    who may not be, trsferrg patients they " can t handle " when the
                                                                                       sta­
judgment is otherwe; and     tug                                         reeiving hospita'
                                 away indigent patients before they get in the door.

Although 41 of the hospita (49 percent) reported never experiencing the diversion of patients
frm neary prvate hospita to their durg ambulce trsprttion, 20 (24 percent) caled
it a " occasional" occurnce, 13 (16 percent) called it a " sometie
                                                                   " problem and 9 (11 per­
cent) labeled it a " fruent " occurnce. In a few cass, hospitas labeled this their "
                                                                                     major
problem.

In the absence of statstiallyreliable informon on this probkm, HHS must rely heavily
on precise record keeping and reportng by hospital to
                                                     fu/fB its responsibilites under Hill-
Burton and COBRA. Given the lack of such record keeping and reportng by Mspitals,
documented above, the ability of HHS to monitor and oversee this problem is
                                                                                 jeopardid.
It is crtically importt for the HCFA and OCR to tae strong steps to strengthen the record
keeping and reportg requirements of hospitals which must form the fIrst layer of vigilance in
this ara. Severa recommendations follow which could be used to begi addssing this issue.
                                  RECOMMENDATIONS

Ths insption identied a number of possible vulnerabilties in the identication of
                                                                                 patient
dumping and the enforcement of the COBRA and Hill- Burn provisions which prohibit it.
Although we were unable to determne the incidence of patient dumping on a national level,
we reommend that certn actions be taken in order to addrss those vulnerabilties.

In an early alen to the Admstrtor of HCFA on this subject, we recommended that
                                                                                , among
other thgs, HCFA make reportg suspected violations of COBRA a condition of
                                                                               parcipa­
tion or par of the provider agrement for all Medcar-parcipatig hospitas. The HCFA
agr    with this recommendation and this requirment is included in the NPRM released in
June and wi be ma par of the provider agreement.

Based on our reord review of 25 hospitals which indicated that the Deparent
                                                                              s abilty to
conduct efficient compliance reviews might be jeoparzed by lack of necessar records
taed by hospitas, we have sent letter reports to the regional dictors of OCR and HCFA ma­
                                                                                         to
inorm them of our genera fidigs and specific results of the reord reviews conducte in
their regions. We note that efficient compliance reviews   might                   recor keep­
ing by hospita and a system- wide approach so that the pattern reuir  incrased
                                                               of referrs and trsfers
among hospitas in a given geogrphic area can be understoo fully.

We fuer recommnd that the followig         adtional measurs be taen:
     The HCFA and OCR should use existig authority to
                                                             reui  and ensur that hospitas
     post notices, such as those poste in Calorna, inormg patients of their rights under
     COBRA and Hi- Buron in emergency rooms of Medcar-parcipatig and Hil-
                                                                                      Buron
     facilties, in order to incras patient awarness of rights to
                                                                 access and to encourge the
     reportg of violations. If dqmping is now camouflaged and hospitas ar reluctat to
     report cass, afected pares may be mad more likely to report violations if they
     awar of their rights and know to whom reportng should be mad. Curntly,
                                                                                   OCR
     provides such notices to Hi- Buron facilties.

     Considetion should be given to the use of joint notice in HCFNOCR shar facilties.
     Al notices, in any event, should contan a local or toll- fr   number to cal with complaints.

     The COBRA reguations should reuir that emergency rom            reords clearly delineate
     if a patent was   trsferr    to what facilty or   frm what soure; or,   a trsfer   log
     shoul be mataed containg relevant information (includig method of
     tation, facty trsferr to/from, reason for trsfer, etc.
                                                                             trspor­
                                                            ). Optially, such record
     would be mataned by both transferrg and receiving hospitas.    This wil effectively
     aid the OIG, HCFA and OCR in conducting compliance reviews to ensur that al
                                                                                   patients
     trsferr to other emergency roms wer trsferr in stable condition.
     In adtion, as par of the intae   process, al   patients arvig at hospita emergency rooms
 should be asked if they have previously requested treatment at another emergency room
 and were denied tratment or told to pursue treatment elsewher. Proper record keeping
 concerning a patient s attempt to pursue treatment elsewhere wil also significantly aid
 compliance reviews and enforcement effons in this ara, as well as raise awarness at the
 patient and provider level of the importance of this information. Lastly, hospitas should
 be encourged to develop formal procedurs for ER sta in the event of a suspected case
 of dumping.

 In order to incrase awarness and encourage reportng, dict outrach to
                                                                      professional
 assoiations compose of emergency room and/or obstetrc personnel, such as the
American College of Emergency Physicians (ACEP), should be un rten
                                                                          to educate
ER pratitioners concerning rights and responsibilties under COBRA. In
has suggeste that outrach be extended to community and advocacy
                                                                       adtion, OCR
progr aras responsible for compliance, HCFA and OCR, should offer to send repre­
                                                                  grups. Those

sentatives to annual conventions and meetings to discuss COBRA and Hill- Buron and
the issue of patient dumping.

Positive effort have   begun in this ara   since   the draf of this report was releas for
Deparenta comment in May 1988. For example, in June 1988, a
                                                            lett              discussing
COBRA reuiments         and the Deparent s commtmnt to enforcement in this ara
was signed by the HCFA Admnistrtor, the Inspector Genera of IfS, and
                                                                          the Dirtor
of OCR and sent to adistrtors of all Medcar-parcipatig hospita. Copies
those lettrs were alo sent to representatives of the American Medical Association,
Amercan Osteopathc Assocation, National Association of Public Hospitas.
                                                                            Federa­
tion of Amrican Health Systems, and the American Hospita Assocation.

The HCFA should move to clafy the definition of what constitutes " stabilzation
                                                                                " and
 emergent condition " such as the ACEP has done, thugh the ruemakg proess
                                                                                  or as
a legislative initiative. Varous mecal associations (AMA , ACEP, JCAHO) should be
consulte in the development of those definitions. Because no such defition
                                                                             exists
unde COBRA, " gry " aras emerge and COBRA is mad vulnerable to abuse.
                                                                              Furer,
beause physicians may genuinely  disagr on their responsibilties under COBRA , a
lack of unorm expetations exits in the mecal community as to the natu of
                                                                             those
respnsibilties. As indicate above. this may
repo suspeted cases.
                                                   deas
                                                    the likelihoo that physicians will



The HCFA should work with OCR and OIG in this ara to ensur that there is a com­
mon Dearnta     understading as to the meaning of these terms so that investigations
in ths ara ar   consistent
                                       APPENDIX 1



             STATE INITIATIVES IN PATIENT DUMPING AREA


                                          Defines      Includes
 State                 Mechanism          Emergency    OD Cas      Remedies


 Caorna               Law                 Yes         Yes          See Note 1.
 Colora               Law                 Yes         Yes         None
Florda*               Law                                         None
Georgi                Law                 Yes         Yes         See Note 2.
Hawai                 Law                                         None
ilois                 Law                Yes                      None
Kentucky              Law               . No                      See Note 3.
Louisiaa*             Law                Yes          Yes         See Note 4.
Marland*              Law                                         See Note 5.
Masachusett*          Law                Yes                      See Note 6.
Michigan              Law                Yes                      None
Montaa                Law                                         None
New Jerey             Regution                                    None
New Yor*              Law                                         See Note 7.
Orgon                 Regution           Yes                      None
Pennsylvana *         Law                                         None
Rhod Islad            Law                Yes                      None
South    Calia        Regution.                                   None
Tennessee*           Law                 Yes                      See Note 8.
Texas                Law                 Yes          Yes         See Note 9.
Uta                  Law                 Yes                      None
Wisconsin            Law                                          See Note 10.
Wyomig               Law                 Yes                      None




.Passed in state after passage of COBRA in 1985.
 Notes to Table

       Civi money    penalties of no more than $10, 00 per violation for inhibiting the reportng
       of violations thugh that or intidation; mamum fme of $25, 00 for
                                                                                   violation of
       anti-dumping for hospitas, $5, 00 maximum for individual physicians, with maximum
       limit of $30, 00 assesse against hospitas for the same circumstaces under
       Fedra law. Provisions for crminal proeegs by the local distrct attorneyState        and
                                                                                       and civil
       proceegs brought by persons hared, as well.
      $500 for each violation. A hospita with      th or more violations in one 12-month
      period is subject to suspension or revocation of license.

      Mimum'fine of $100 and mamum fme of $500.

      Civi money penalties of up to $5, 00 for an officer or employee, or suspension
      the state mecal assistace progr for hospitas in violation.                     frm

      Civi money penalties of up to' $1    00 for hospitas that violate provisions.
      In the event of a violation , the patient has the right to sue.

      Up to 1 year imprisonment and a $1      00 fie for pratitioners in violation.
      Offendig hospitas subject to suspension or revocation of license.

      Offense is a Class A misdmeanor, or 3rd degr felony if patient dies.

10.   Fines of $1 00 for each offense.
             APPENDIX 2


CALIFORNIA ANTI- DUMPING LEGISLATION
            ...' . . .                 ..              ..                                Cdifornia
                                                                                         Regular SeSSion

                                                                                         1987 New Law, Page 

                                                                                                                         S 153


                                                              CALIFORNIA
                                                             1U1ar S...1012
                                               Chapter 1240            . La, 1987
                                                      SeDate 1111 No. 12


            . An act to amend
                 1798.2 of,   Setions
                                                    119,        13i1             119. 110, 1198 172, and
                                 to add Setions 1317.
              1317. ..                                                    1, 1317


             179;n1317"", 1317. 6, 1317.
                                         , 1317.8, 1317.9, 1317.
                    to, and . to add Chpter
                                                                   1317.3
                                                                 9a, an
                                                                                               1317



            Setion 179. 9&.)                2..5 (commencig .
                                            to Par 1
                                      Divion  2. of, the Health
                                                              of
            Saety . Coe, and to add Setion
            rewtig emergency medca1servce. 1.f to the Pena _.   ':d
   'f                      to



                  De            01   tle.      Stat     01                  do       euct as          foows
                                                                                                       d,c
                                                              0Urm

         .l         SECTON 1.         Legitue fids and
                                               (a)

           ! tht      the proon of emergency mecal cae is a
           3 pulic servce of great beDeft to                                                   r'ia".
           4 .

                  CaI'               the protection of the health and saety of
                                     tht a comprehenve and
      8 syem . of emrgency medca servce be provided   quty                                     hi
                                                                                                                It is





  ' 1 . (bJ Th                   Letu. al
    . 8 emerency medca semces areSnds       tht the co of.
                                     greater th the c:
    . 9 deverg otherform of meca sece in the stte, as
  . 10 . emergen Iece mus be rey
     11 Uhour.a-dy ba and mus be provided     availe OD
                                                      to al
            d1es of abty to pay. which is requied by
     12'

     13. law.                                        extig
     14         Letu
           (c) 1b          r8gnes the breath of the
     11  UIpete
     16 fag  CaID    and undercompensted cae problem
     1'1 UDas' pens The addition of Chpter
                                            provide                  hich serve lage Dumbers of

         (commeng with Seon
    18 . .                        1797.9) to Put 1 of Divion
    19 U of th
                 adl
                   Heath an Saty                 is an
                  oay OD segment of the uncompeted cae
   Il "prlem th area of
                                                                         Co
                                                                                         sece
                                                                                                      eirt
    II LetU fuer                   emergency

    Ie
    13
                          believes      hS8!i"- II
                      emergenc cae to anyone in nee
              el of abty to' pay. incu los restig frm
   IS ca. of patients. who have ' no thd-
   26 payment or ' for whom availe
                                                      physci
                                                            The


                                                      soure of
                                                                 tht




                                                                                     pa
         adeq                              paymeDt     is grosy
                    COver the
                         uate

   18 Emergency Medca Servce. Fund
                                                       co
                                    of providig such cae. The
                                                   by Setin
       of th ac woul provide lited createdfudig
   30 o&et the loa providers incu for treatig to
   31 patients who arve in nee of emergenc c:e.     unnsred
                                                                                                      puy
   3! prdes
   33 importt
             P8 laer
            as  oaly
                         of
                              compens tion for a
                              the         problem
                                                        Th act
                                                            but
                                                      regadig
                                                                                                sm
   34pron
   35emgenc     of servce to the unmored
            medca se.
                  (d) As a rest, the Legilatue fids
                                                    tht providers of
- ., 36                                                                mus ,bear               the     higher
               ''
--_.., .... .. ----.
     . ...       .. ' .-....      - _.     ..
                                    . ' .. ' .. ,
.. .    ' -' ' : .''          :.
                                                                         ........_-    .. .

                       Califoru!a S 12

                       a-sular S-Sl1o

                       1987' Nev Lava Pal- 5154

                 1 expns of providig these servce and mus suer from
                     par or no reimburment from may of thei patients.
                 3 II alowed to contmue, thes higher
                 4 reburmena could force may co           and lower
                                                      physcia  . M6
                     8es,it- to. redce the. 'quaty and avaibilty
                 6. emergency medal.. servce to the de
               . 7:.     r'iaft!l                            ent
               . (e Therefre, by' entig. th
          9; Legitu ia providig. a mea of legtion,
                                              par   fudig
                                                            the
         10 . thes vita.
      . .11
                        sece
              Leesece be reted. . to the
                                Furer,   it is th           for
                         th the source of fwdig of ep1ergency
                                                  intent of the
      . t 1J, medca
                                                                               incident of
       ' 13 emergecies equil imedte medca
        . 14. th ac wi levy. an additiona
          15 trc: and ot;er               pety    asent
                                          th, cots of emergency
                                        fies In th way,
                                                                                cae. Thus,

       . 16 . medca            servce   sh be borne to a degree by
      . 17 bav.. & . relationp to crtig th emergenciesthse who
     . 18 . . SEe. 1. Seon         of t& Heath and Saty Co
                                           131   'l
             1Q amendedto
             81.                     servce and cae sh
                        1317. (a) Emrg
     . .!l prvided to any pen feuestig    .the serv or care, or
        II               ce or cae is reested for any condition
                    for whom

      ' m m whi the' pen is in dager of los of Ii, or serious
         14 iDur or iles   at any heth faty lins under
    : 25 chpter tht       mata      and operates an
      26. depaent to provide emergency servce toemergency
          whe the. health faty hu approprite facities  the public
             l;4;-d penn avale to provide                    and
         28.

     , 29.ar. '                                   th  sece
      30,   (b) Iz. no. event sh the
                              be. ba
                                                      emergency          oE

                                                 afted
                                                          prvion
    . 31
     .31. - pen ra,
                   sece md
                                                         upon, or                      by, the
      33 ciH'.,4Ihi p.. age, se ty,  . religion. nationa ori,
                                   prexi      med condition,
      34 physca. or menta hadicap, ince
        3S srtu or abilty
          extt
        35.       c:tace
                 th a
                                     to pay.
                                                                     st
                                            for medca servce except to the
                                                                                      ecnomic
                                                 such u age sex, preexitig
   . 3'.           mecal       condition. or physca. or menta hadicap
       38 mec:y signcat to the. provi. of appropriate
    " 39 med' cae to the patient. .
          (c) Neithr th heath faty,. its employee Dor any
                                               C&l1forn1a S 12

                                               "-gular 5..don
                                               1987 Hew Laws Page 5155


           1'   physci deti        or potr sh be lible in any
           2 acon    arg    out of a
           3 servce or cae if the
                                          ref
                                           ref is bad on
                                           to render emergency
                                                       the
                                   renale
            . determinati on. exercig        Cae, tht the
           S penon is Dot suerig from an emergency medcal
             codition. or tht the (heath f'ty doe not have the
           T approprite f'ties or quaed
   . 109withut     servce
           8 reder thos                     persnnel avaible
          (d)
               Snt
                   Emergency servce and
                         quonig                   sh be rendered
                                                cae
                                     the patient or any other penon
  . 11.     . U to hi or her abilty,    to pa therefor. However, the
 . 12 patint. or hi or her 1eg               y resnsble
 . 13
   J4 o          er suly fDce redered
             sudi sh                        relative or
                   uecte an agreeent to pay therefor or
                                or credt wormtion
     15. prmptl afer the servce are
     16 ' : (e) II a.'heth
     11 chpter doe not      mata fa
                             IUbjec to the provions of
                              an emegency dearent, its
     18 . employee
     19'
                       shlievereles exerci
            determe whether       aD   emergen ez  eaa   ble care to
                                                     and sh diect
     ID\    the pers selc          emergency cae to a neaby facity
 . 21 which         nee servces,
                  ca reder the
  ' D' pens sekig emergency      and sh ast the
                            cae in ob tainin the
    13' sece inudg trrttion
                                 th cicuce
                                                servce in ever way
  : St reDale UDer
 . IS . . (I). No ac or tmon or any . rese tea esblied'
  16. by any heath              f'ty
                            licens under
       opeted by the feeral or stte governent, achapter, th
                                                         or
                                                 county, or
, 18 by the Regents of the Univerty of
  29. omtted whie attemptig to restate   Caorn done or'
    30: is il     imte                     any persn who
                            dager of los of lie sh            impose any
    31

. . 32 th st, Dun or employee faty, of the heath facity,
                  ty upo the health      the offcers members of
   33 iIc1udg. ' but not lited to the membe of the resue
       t.... or upn the lera or stte lovement or a
. . 34

   35 co
 ty, jf loa fath is
             Re ofte"                  exe
   3&'
            Ip II            u us in th setion, mean a
                        physci
 . 38 employe of heth faty who
                                  and sugeons, nun, and
                                  have ben tred
. 39       cupulona restation md have
           by the heth   faty
                                      ben desgnted
                                       atempt, in   c:   of emergency,
    , ' .--
 --..
,,. .;
    ".. .. g..
              . ..     . ". .      ---
                                                   ,' .
                                                      .. ""          . .. ,
                                                                          . '. '.   ..




                  Cal1fon1a 5

                  blUlar 5...10G
                  1987 Nev Laws 'al8 5156


                  to   retate persns who are in
           2 los of lie. "                  imedte                                       dager of
              . (h) Th seon sha not relieve I health facity ot any
                  duty otherw impose
     , 5 for the desgntion an trgby law upon the heath facity
                                        of members of a rescue
             tea       th provion or matenace of equipment
      . 'r :ta be. UI by' a ree te .
                          Or for

           S' . ' SEC 3
                     seon 1317. 1 is adde to, th. Health. and
            s.ty Coe, to rea
       10 1317. 1. Unles
       11 ' roUowm d
       11 '    arcl '
                                eotezt .         th
                        t:oDl sh'contrl the coi1ction of
                                                          the other                 fe,
               ': (a) '      EmergeDcY -"Ce' and cae "                          mea medcal
    , 14 ' lCeeg, e 1''''. tiOD, and evuation by
      15 to the atent petted by applicale Jaw by other
                                                                                    physci or,
    , 16' ' pproprite' pennel. under . the mpervoD of a
               physci to             iI. ai emergency medcal
               eoditiir or' ace
                              lar  ex   deter.



      19 trtment, an' sUer by 8 physci nec
       18. '                                   it doe, the cae,
                                                              and.   it



      SJ relie or eJi1';"'. te the emerency medc: cotion,
      II ' witf. the- Capaty of th Eaty;.
    .. II'          Emgen medc: c:ditiol" mea a medcal
       2: condition mag, its by acte
                  ; (b)' -

                                                    syptms
           suc:ent Seerty (mdudig seere pai) su tht the
      25' abce of imedte medc: attention cou1 reunably
     ; 26, be exted to rest in an of the loUowig:
                   Plg the. patient. heth m seOUi jeopady.
      IS:. ;. (I):
              (2) Seous impaent to boy nmc:oDl.
              (3) Seous dysc:oD of my boy or or
      30 . (c) "Actve Ja"' mea la
    .' 31' either of the-
      31" ' (1) Th is iDeqte
                                      u1d
                                   foDowg
                                               at a
                                             efF sa trer tioc ti
                                                       at which




      36 '
                             tr
      33 moter hota pror to deliver.
   . 34 (!) A                may po 8 theat to the heath and
      3S sa of the patient or the unborn chd.
                      osta" mea aD hosta with an emrgency
               ,' (d).

                                                              to




                    ent' liceas by. th' stte depaent.
     38'

   , 39' of Heath
   . 40 ' :.
                              Se.
              e) --tate deparent" me th Stae Deent
                  . (f) "Medca ha- mea a materi deterioration
   .. ----
,.. -,   :,. .,     .. ..'. ..' :.   .- --(g).
                                      ,.   _. "                 --
                                                                 . . " . . , . .." '                .        . .:.-'    ..-----
                                                                                                                           .        ---
                                                                                                                                     -.
                                                                                                                          Cd1forn1a 5 

                                                                                                                          legular 5..81011
                                                                                                                          1987 New Law. Page 5157


                        1 in :or jeopady to,                                                      a Patient                s medcal condition
           , 2                         uped chce                                          for recvery.
                                                                                                                                                                  or


                      . Asce.it ea  the Board of Medca Quaty
                                                        Bod"




                  : . b: . . (h)capailty of                t&e            the faty" mean
             I: 6 ; t!pab                            ilti whi  the hosita is requi to havethose
                                                                                           as a
                                      codition of its emergency medal servce permt
             . . 8 
                                                       ed on Servce Inventory Form 7041 Bled
                                                                                                                                                                and
           . 9 bY the

                  11.
                                                      ghOit
                                                         and. Development.
                                                                  . of Statewde Health
                                                                                   with                      e Offce
                                              (iJ.   Col:tiOl                                   mean the                  rederg of                          opion,
                                     detered . to b. medcay nec
                  12 Ml'c                             or pres'b                                  treatmezt                 by telephone md- when
          i 13: 


                  1.. , emerg                                                                                                                  joitly by 
      tbe
                                                     ncy             md      tbe
                                                                                                                                              mcludes review
                                     ol. tbe            paent's medca 

                                                                                           spty phJ'cW 


                                                                                                                                            __rn;PUJ aOQ

                                                                                                                                            opil orspty
                                                                                                                   re
         . 16..

               1'. phJ'cW who i$
                                     trtmt                           of   tbiJ p.aent                             iz.     pe.                 by

                                 qrMed                                                                        to live:
                                                                                                                                                    render
             1e'                 tbe 12
                                                       tlepaaent.         trtment                      iD     order to
                        Seon
           19.-: ' SEe. ,",                added to th Heath and                               131'7.2 is
                                                                                                                                   $Ibile



         . ao.
        21          ty Cot, tore: .
                1311.2 No peD neeg eme
      :. D . cae may .                                servce and
     .: J3:
        14 .
                               ho    ed &om a hosta to mother
                                         rason (suh u the pen
                       pay. for any emergency serv or cae) unes
                              iDiltY
                                                                be

                                                                 lDynoDmca



        15. . .m. of              nditiOD ar met:
                    pen
                            tr.
                                                     th followig

           IS                    .Y!t . (a) The
                               if Qec,
                                          ed and evauated by a
                           is

          yf"'II
                                                         prr
                                                                                                                  pr
                                                           , izcladmg,


   18                                                                                                                           COtatiOl


 ' 19
                            Je
               Th penon hu be . (b 

                                                 with emergency
                 and ca so. tht it ca be determed with

                                              petr"
   31 reuaale med probabilty, th th
   31 . caus by th             wi
                                                 trer or delay
                                    J20t crea a meca had
   33 th
   34            phys,"l1 at the trerrg      c) A


   3S aDd ha obed the consnt to hosta ha notied
         38 ;
                        th  revfg
                          phyB"". at
                                            th trer by a
                                    hosta aD coamtioD
            tb          hosta tht the pen meets the hOspita'
            Mft'. ODl crte
         3&.

         38              pelD   retil   to approprite
              (d) . ne trerl hosta provide
                          equipment n      to trea the pen.
                                               fo approprite
. .




                          Califorl1ia S 12

                          I.plar S...iOl1
                          1981 Nev Law. Page 5158


                      1 penoei" .                eqUipmet
                                                  hicl- a "' reanable and
                     2 prdent physici     in the sae
                 3 aerc:g ordi cae would use to efectmilap           localty
                                                                      or

                                                                the trer.
                          ) Al the persn s pertent medcal recrds and
                     copies of al th approprite
                 & ue renaly avable are trerred diostc test resuts which
                 1 ' . (f) The rerds trrred with the persn.with the person.
                     8 "Traer 





                10 Th rarm of the
                     minim
                                 Snmma '. agned by the tnemng
                 9 " physci which conta relevlDt
                                               -rrar                  tr
                                                                   include a

                                                               inrmtion.
                                                   nmma " sh at a
                                    um conta the persn nae,
               12 age, iDce sttu and meca condition;
                11
                                                addres, sex, race,
                                                       the nae
               13 aad addres of th tranerrg doctor or emergency
               14 '

                         tng
               15 an, date the     pen     wu fi
                                                     tr;
                         depaent persnnel authorig the         the tie
                               hosta   the lWe of the phYsci the
             18:                                    presnted    at
             It revig hosta constig to the trer and the tie                          at the
           . 18, aDd date of the consnt; the
               19 the. reuon for the trer;tie and  date of the
                                                             deatontrfer;
                        signor th th
          . medca probabilty, tht the
        . ha to th patient. Neither the
      ' 23 Dor.         hospita   trerr
                                      be
                                           and' th



                                         requied to
                                                           tr
                                            signor ' is ased with
                                                      reasnable
                                             creates no medcal
                                                         sh trerrg
                                                       physici
                                                                     of the




        24 the
           25 meca recrd
                                   -rraer
                          nmm :. iDrmon contaed in  duplicate, in


           S6                      th the persn.
                                            trerred

                     trer confrm with regution esblied

                                                       re
                            (g) The
             . by th deparent. .
           sa    (h) Noth in th seon sh
           29 a patient fo mec:                                  apply to a        trr
         . 30 (1), Noth in th seon sh prohibit the                                 trr
          33
      , 31 
:=tati
       . 31 



                     t:
            dih- of a paent' when th patent or the patient'
                      tr
          34 meca adce.

                                       ve reques a
                                    ' CODSnt to the
                                                                or dihage and gives
                                                                 or        ft."'
          3S
          38 Saty  Co,
             ' 1317.2 (a) A
                                       to read
                           SEe. 5. Setion 1317.2
                                    is adde to the Heath and
                           hosta which ha' a leg obligation,
        "38. whether impo by sttute or by contr
         '39 of                                  to the extent
                           th contrtu
          4Q includig. but not
                                                 obligatioD; to any th-
                                                                       pa payor,
                                                      lited to. a heth matenace
! "         . .




                                                              California 5 12

                                                              legular Seldon
                                                              1987 Mew Laws Page 5159


                  I orpn;'7ati on, health       ca servce plan nonprofit hospita
                2 sece pla, iner,
          : . 3. L county 





             .. 5
                                        c:
                                      or preferred provider organzation,
                            or' UI employer to provide cae for a patient
                  reeive th patient tosped
               4r under the                        in Setion 1317.2
                                                            te
                                         the extent requied by the
                  :aplic:le sttue or by the       of the contract, or,
              f ' whe the.hospta is. unle to acpt a
             ,8 it hu alep1 obligaon,               patient fOr whom
                                                  to.prvide cae whose   trer wi
             : 9, . DOt create          a medca had. assped        in Setion 1317.
            10 it sh mae                  approrite angements       for the patient's
                   "i. .
          , 12. .         coUDty hota                sh
                                               acpt a patient whose
            13. trer wi not create a medca
            1" $eon.1317.2 aDd who is determed by
                                                        IS
                                                      the
                                                               ha
                                                          county to be
                                                                        sped
            18 elgible, to .recve . health cue servces requied under
            16 Par 5. (commeuc:g with Setion 1700). of Divion     9
            17. :tI Wele aad.                lmtutions COe, UDes the hospita
           . 18. .   do                      apprprite be capaty, medca
              PeeJ acrdce
           . 19 '
          . fD patieut
                              Dot hae

                     or eqpment reqed to proe cae to the
                                with acepted med
                          hosita is unble to acpt aprace.
                                 in

           22 who tnr wi Dot cre a medca had
           21' When                COUDty
                                                    patient
           f3 sped. in. Seon . 1317.2 it sh mae          u
                                                           approprite
                     argements for th patient s cae., The obligation to
                         do Dot madate a ' level offo
                     mae approprite' argemeuu u. set            in th
           26 suvion'                                 servce or'
              payment, mod the COQlty's obligations mder Par 5
          28 '(caeng. 1rth. Setion ' 1700) of.DivioD 9 of the
          29 Wele aDd Intutions Co, create a ca of action, or
          30. lit .' countys
          31      :s, with availe
          32 'county'
                           Sety reur.
                             sb     flexbity.
                                                       to   mana

                                                    a county'
                                                                    county health
                                                                    However, th
                                                              dUini,b
              rensbities
                                                      DOt
      . 33.                UDder Par 5 (commencig with Setin
          34 1100) of Divion 9 of th Wele
          35. or. th reements . contaed in
                                           and Intutions Coe
          38 (coeng                               Chpter U
                                          with Setion 1+f).
                      (c).       hosita sh provide pennel aDd
          3&.  eqlDti     reuonably reed in the exerc
          38 meca prce for the cae of the              of goo
      .
          40 :  4d)\ .Ay. tb-pa
                                             trrred    patient.
                                                 payor, includig, but . Dot lited
 . .   .&                                    - '-




             Ca11fl.mia S 12

             Recular Se..ion
             1987 Mev Law. Page 5160


             to,    health     matenace organtion, health            care
        t Servce     Pla nonprofit hosita sece pla iner,
             preferred provider organtion, or employer which ha
        4. . a. .          cotrtu
               sttutory or '            obligation to provide or
              deYnn;fy emergency medca servce ' on beha of
           paent sh be lible,      to the extent of the contractu
           obligation to-e patient, for the reasnale chages of the
       .8    trrrg      hospita and the treati phyc: for the
        9' emergency servc: prOvided purt to th arcle,
       10. excet    tht the sh be resnsble for uncovered
                                patient
 . ; 11 sece or any deductible or copayment obligation.
    12 Notwthdig th seo the libilty of a thd-par
        payor which ha contrted with health cae providers
        Ea th provion of thes emergency servce sh be set
. : 13.


  . 15 by th. term of- tht contr Notwthdi th
  . 14 





       16. 1ecm the
       1" by       th Ince
                          lity ofmm;q;o
                                  a, th-pa payor tbt
                                                is licensed
                                        ner or the Co      mYn;c..; oner   of
       J:8 .Corpratns and         ha a cotrtu obligatin to provide
.' 19 or       ' iDemn           emrgency meca servce under a
                         subscbe or an emoUee
  ., 2D' cotrct which cover                                       sh
. 22 md
 -' D licensg
                         re
. . !1 ' determed in accce wi the term of tht cotract
          sh           UDer the sole jurction of tht
                       agency.
       S4,                    ha a legal obligation to provide
               (e) A hospitarwhich
     25 ca fo                      ed by subdvion (a) of
     26- Seon 1311.! to. th exent of its leg obligatio
                       a patient. u




         impoed by sttute or by contr to the extent of tht
     28 cotrtu obligation, which doe Dot acpt traners of,
       21




  . . 29 or ma other appprite argements fo, medcaly
   : 30 stle
       . 31'
             adte.
             reaale
                    patits
                   purt.
                    ches
                         therto
                          of the
                                 sh
                                 th arcle


       33 trtig physci for prvidig
       34 shoud have         be
                                  in violation of
                                      be lible
                                           hosta andtrg     or regutions
                                                                  for the

                                                    servce and cae which
                                      provide by th recvig hosita.
 . 35 (f) Subdvions (d) md (e) do not apply to county
  . 38 oblitions under Seo -1700 of th We!fe and
  ' :r IDtuticm Co.
    38 ' (I) Nothg in th seon sh be interpreted to
    39       re hosta to mae arements for the care of
    40 a patient fo whom the hosta do not have a legal
.. ..   .' ': '          ..
                          . .                                              ..
                                                                               California S 12

                                                                               Ilegular S...1on
                                                                               1981 New Law. Page 5161


                                obligation to provide cae.
                                                      3 is added to the Heath and
                                       SEC. 6. Setion 1317.
                         -3 Saety Coe. to read:
                             . 1317.3. . (a) AI & condition of licen.e, eac
                         5 sh adopt, in cotationwi                          hospital
                               trer                                                   thst,
                         & aDd                               the medcal     policies
                                           protocla constent with
                         T' mgtioDS adpted heeunder.                                     arcle and


                                                                          ditionearae, ethcity,
                     8. . (b) As
                    . 9 adopt a poli-prohibitig license,     hospita
                                             a. condition
                                                                    oE.



                    10 of emergency servce and ca based on the provion
                                                          in
                    11
                                       gion. Dationa origi
                                        citienship, age, sex, preexig
            . 12 medca condition. physca         or menta hadicap,
            . 13. iDance sttu, ecnomic sttu,
             . 14 medcal servce, excet to the extentor abilty to pay for
             . IS such u age, se preexig medcal      tht a cicutace
                    18 : physca or menta                                               condition, or
                                                             cap is medc:y signcant
                                                             hSl"
                    17.     th pron               of approprite medcal cae to the
                                                                                             patient.
                  18: . .       As. L coDdition of license, each
                                 (c)
                                                                                       hospita
        .. 1
             rewe tht physci who serve on an "
                  to
                  21.
                          the hospita' s emergency rom caot
                          to a
            . 22 region. Dationa
                                        ca on  the          ba
                                                         of the patient'
                                                                                   rera, ethc:ty,
                                                                                          to
                                                                                            " bas to
                                                                                          resnd
              S3          med                     origi, citienship,
                                            condition, physical or age,  sex, preexUtig
                                                                      menta hadicap,
        .. 25
              14,         iqcese,
                          medca
                               sttu,.                   ecnomic sttu, or abilty to pay for
                                      except to the extent
                                                         tht a cicumtace
        , 26 such.                .ge, sex, ' preexig medca
                          physca or menta hadicap              condition, or
            28 th prvion of approprite mis medcaly   signcant .
              1:.




            29 If. contrac between.        cal cae to the patient.
                                    physci
        .
            30' prvion of emergen
            31
            31 conditions sh
                                eveDts th h
                                             and hospita for the
                                             coverge    prestly           ro
                                                     ita &om imposig thos conditions, the


                                       bareui
                                                    be included in the contr u son
            34 coedperible.                                                                sh     as is
            33 lealy         Nothg in th seon
            35 c:" 

                        u    tht any physci see OD
                                                                                             an .'
        . 36.. (d) AI. a condition of license, aU hosta sh
          3' iarm aU pens presnted to an emergency
        . 38 th represntatives if my ar presnt and       rom
          39 unble to underd verba or wrtten the persn is
        . CJ both ory an in wrtig. of the reasnsCOmmuncaon,
                                                 for the traner
 . .::'" .,,
     , '              ----.--. --.--- '.-'                       ---. .


                  Californa 5 

                  R8cular 58..10a
                  1987 Hew La.. Pi,8 5162


           1- or       ref to provide emergency             servce and cae and
            the persn s right to emergency servCe and care prior
       3,             totrr
                        or dihage without regard to abilty to
            Nothg m th subdvion requies noticati:)n ofpay.
       5. reasns for the traner in advance of the trfer where      the
       6 . penon is 'unmpaned and th hospita.
                  renale                                  ha made a
                        eSr: to locate, a reprntative, and beause
       & Gf the persn s physca or menta conditio
    ; 9. iI' not possble. Al hospita sha promientlynotication
     .11. .      ri
      10, jn their emergency rooms mOrmg the public        post a sign
                                                              of their
                    Both the poted sign and wrtten communcation
    : 11 . COceg th traner or                        ref
                                               to provide emergency
   : 13., sece and cae sha give th addres of
                                                     the depaent
     1" 0 ' u. the
                    gOvernent agency to cota -in the event the
     15" penoD             wi
                            to coz:pla abut the hospita'
     16- . (ehIf a hota doe not tiely adopt the s conduct.
   :1.     protocls reuied iD th arcle. the hospita.policies
                                                          iD
                                                                  and
                                                             addition
    18 ,         to;.J or reoctiOD of 11)' of its lice sh
    19 , JUjee to' . be. Dot to exce one' thousd doll
   .m. . (ll,OO) '         . da" afer eztion- of 60 days ' wrtten
    21, notice fr the.                  stte deent             tht th hospita'
                    proocls reuied by th arcl are
   a. inequaor.unes
   . a ! pac:es
                         thtt del is excu by the stte
   16. . depArent upon a showig of
                                   go an suc:ent cause
  . IS!. by t: hosta The notice' sh includ a detaed
   26 sttement of the stte depaent' s reans for its
         detertion. and            ch."les to the hospita'
            .det. .               whi woul be actale to the state
                                         suggesed'




, 30. - Ef)              Eah hosta.s' polici and protocls
   31 or UD                th arcle.     sh submi          reWred in
   38
 : 33 .
            st
            adtidepat
                                        be          for approva to the
                                   with go' days of the depaent's
                               of regtions under        th arcle.
   34
   35:
   36 "
            Saty          Coe          to red:
                      SEe. 1. Setion 1311. 4         is added to the Heath and
                          4. (8) Al hosita sb mata recrds of
            88    1317.
  31
 . 38 MMemonmdum of
  39 01 

                          tn. ma or
                                  Tra"    ' rev
                      Seti 1.17.2 fo a peod           deth yan
                                                       of
                                                                 iDluelg the
                                                               in SUbdvion (f)
            .0
                      (&7 Al   hosta    "u1lrn or     revig trrs          sh tie .
-_.,-...-.-
       '%        ----." .-- _.. -.- -   .'
                                                                      California S 12

                                                                      Regular S..81on

                                                                      1987 New Laws Page 5163


             1 with the stte           depaent anua reprt
                                                     on form
             2 preribe by the deparent which sha descrbe
             3 agegate number of !=aners made              the
                                               , and received
     - 5 (c)trers.
             " acrdig to the persn inance sttu
                                               and r                                                11 for

              The
                lice    reiVig
                     emergency room health
                                               hospita and al                      physi other
             8. prehosta       emergency personnel                        persnnel, and        certed
                                                  at the receivig
            9 hosita who know of apparent violations of
    .      10 the regutions adopted hereunder th arcle
           11 corresDdig persnnel at the tnerrg                                      sh and the
          12 the  trmng hospita may, report                                               hosita and
                                                                                        the apparent
                           depaent on a form prescribe
        13 violatioDS to the stte
        14 by the stte depaent
                             with week followi its
      IS ocence. The stte depaentone
     ,16' copy of the form         sh promptly send a
                                             to the hospita a                    dmi";st
        17
            prite medca st commtt. of the tor and
   . 18 hosita md the loc emergency medcal servces                                           trerrg
              rmes tbe'smte depl t concludes
 . If copJ.t .dOf
        1& agency,

                                               the
                                                 .oeg facts reqWrg fuer                       tJt


      21
                         otber
              izvestiOIJ or

         dttplent colJt:udes,
                                       Qot


                                                            U1eritorioUS or 

                                                                                 tbe ate
     22

    . 23       tJt                               ba
                                                            uplJ           tbeciUZce
   . U 

                 dios
              t/e cue,

              impeed by
     fJ p8DS requied
                              its izvestigatiolJ 01


                                         When two or more
                                                01    tbe
                     to report jointly have knowledge of an
                                                             mrm.
                                                                    tbe    .Jegatioz would




  . 26 appaent violation, a ,sigle   report may be mae by a
              membe of the tea seleced by mutu
                                                agreement in
     28 acrdace with. hospita protocls. Any individua
    30 '
   31         rert
    29 requied to report by th
                                   a ri
                ropo joint rert ha setio          setely
                                                                      who digree with the
                                                                      and du to


                6.
   32 . A faure to reprt UDder subdvion sh not
   33 cotute a violation with thethmeang
   34 or. 1317.
                ap
   3S . . (d) No hoita goverent
   38 rete.            penae,
                                             of Setion
                                     agency, or persn
                                intute
   3f or reer moneta reli &o oraotherw   c:viaction agai,
   38 iD fath an appaent
      ao
                                                  cause any
              to a physci or other persnnel for reportg  in
. 39
 . 40 fttioDS adopted here                       violation of               th arcle or. the
                                                      der to the stte                  deparnt,
                       . (,)             $/




                       California S 12

                       Recular Se..1oG

                       1981 Nev      Pa.e 5164           L8.
     2" governent
                 medca st, or any other interesed
             1 hospita

           (e) No hosita governent agency, or person
                                                     par
                                                        sha
                                                                     agency.
     4 . retate agait, penae, 'intitute a civi aceen
     S or recover moneta relief &-m, or otherw.      agait,
   . 6 iDjiu to a physici who
                                        to   tran
  , 1 :, wheD th physci deteres with a patient
                                                   cause any
                                                                                                             ref
     8 medca probabilty, tht the
        the                      tr
                   wi create a medca  trerhad
                                          or delay
           10 (f). Any pen who violates subdvion
           11 Seon 1317. 4 is
                                                  renable
                                                   causd by

                                           sujec to a civi money pety of no
                                                                                                                                              to the person.
                                                                                                                                               (d) or (e) of
           12 . lDore             th  ten thousd            00) pe violation.                         doll (810,
           13 The-
                          sped
           14 tQ. IDY other
                                 reedy
                                in th setion sh be in addition
                            remedy provided     by law.
           15                            The- stte      depent sh on ID Umua bas
       16- publi                                 and provide to the Legitue a sttitical
       17          SUftft!l
                                        ecnomic
       18' of emergency patients th frequen
                                                       by countY on the exent of.
                                                                                                                                                      trers
           hadous                           of' medcaly
                                                         trn,trrr
                                                              the ince sttu of
       10          popultions

       !l determed by the '                                                          stte deparent
                                                                                                                   and aD violations                    fiy
                                                                                                                                                 the patient


       22 natu of the violations hospita iDvolved debing
                                                  IDd
                                                         the
                                                       th action
       ZJ taeu by        the stte- dearent iD respns.
      !4       sumftanes
, : 25' persnstrlDerred
                                                         sh
                                                          These
                              Dot reea th identity of indiviua
 . 16." " (h) Pr     gs by th                  ocee
                                                to impose a
      &n under Setion 1317.3 or 1317. 6, and proceedi
                                                                                                     stte depaent
  28 the bod. to impo a ane unde Setion 1317.           gs by
  29 ea.8t1etea 8eear 'tea
                     .J-                          6, sh
                                       ,ra" 4ia. ef.ptSf'
       (I.- BeiB
  30 I 

                         Saetia. 11199)
                                                    Di' iaiaft           wH
                                                                                                    wM th

                                                                                                                      . Pe
                                                                                                                                                ei



                                                                                    C.- 8..4&'                      c.....                      ei
  31 a ef
                                                              ef"
                                                                                                                                         coIJducted
  3t

  33 '

 .:M
             foovn




             bMta
                       (1) U. bota                                            d..bu.es
                                                                                  to COl2ta.
                                                                                                                   tUyJ
                                                                                                                           propt                      ibe, the
                                                              wjtb 18
                                                                                                                       theMtr servce 01
 3S.

 38
             l20tice

             its iltelJtiOIJ to
                                   of          propt

                                                                    COtm
                                                                               Me          IJoti
                                                                                                         ditor iI
                                                                                                             the

                                                                                                    propo lie.    wrtig of
                                                                                     the
                                                                                                                       U reuested by
             Ibe                         itJ             the             ditor                                 ditor's desgnee,
                                                                                                                   iInz
                                                                                              or:      the
 38         bold,               wjtb                     30          buses                 cJys aD
                                                                                                                                        colJrence, .t
 39 the

            1'-;         COl2cJUlOl                                 oJ     wbicb           he or me                 /myai,                     mod,

 40                                    the
                                                  prpt                                e.       Uthe            diec                or   the          ditors
                                                                                   ..




                                                                                                                                         California S 12

                                                                                                                                         legular Session

                                                                                                                                         1987 New Laws Page 5165


                          des       gnee                             the propoed fie,
                                                                                   moces,                              or       djIlJ
              2 be 
              or.se shal state with parcularty in wrtig hi or ber
                 reDS for tht                                               actio                           and shal                        imed'ately
              4- copy therf
                                                                                                                                                                                             tramt
                                                                     to           the            bosita. If the hosita ieses.
                                                               determtion made                                               Uter the UJrmsl
                                                                                                                       sJ izrm
                      COlJtes                      a,

              6, .    coJ:rence, the bosita                                                                                     the clrector "
              7. wrtm wjtb                                                    15           buses                                                    afer it recives the
       . ; 8          decOl                         by the dkector                   dkector's designee. The
                                                                                                                                cBys



              9 boiaJ m&                                              lJot" be reuied                inormal
                                                                                                                           or

                                                                                                                                           to requet                                  an
             10 coJUnmce
         11 actiOll. If the bosita
                                                           to COtes                                         propo &e,

                                                                                                                fa                 to
                                                                                                                                                              as
                                                                                                                                                                           sped il th
                     wrt:g t:t it
                                                                                                                                             lJoti the diector
         12 . 
                                                      intellds                      toprotes the propose Bne witb
         13, the                   tieJ
                                                    sped                                  in       th subdvion, the prOpo lie
         14
         15          Il
                     Ib




         16 ' (S) Ifa basia)
                                     be      deeed

                                      Qot be subject to
                                                                                    J1



                                                                                        Qoties the
                                                                                                        order of

                                                                                                    nntj"i
                                                                                                        fuer
                                                                                                                     ew.
                                                                                                                                        thestt deplent and
                                                                                                                                                                  trtive

                                                                                                              it iDtends to        dkector                          t:t
         11 . CDtes a. proJ'                                                                      dUector sJ imedtely
                                                                                           ibe, the





                                            to eZ Il
. J8              QOti                      the            Atomey                                     Geer                                Upon Qotication, the
  . 19.           Attey                              Gmer
                                                                                                               promptly                             tde                    aJ appropmte
  " 21
        JD        actiOlJ                                                                . the                 propo                                 &e                    iD         a.      cour of
                  competet
                                                         JurctJ"OD lor the                                                                                                                                   the
                  bosbl is loted                                                                                                             county iD wbicl



    23. AjlJa.
        22

                            (3)                                            actiOlJ                     to      enfrc




                              pr
                                                                                                                                                                                 &e
        14 Slid by                                                                                                                                prpose

                                                                                                                                                       hospi
                                                                                                                                                                                                   sh



       ditor
                                             tbe Attorney                                       Geer                            aler                                                  noties the
        IS                                        of it! iDtent                                  to          COlJtes                      the             propo                             lie.
       JutJc.              prouted
                                                                                                                                                                                                        If


    rr t:                                                                                is
       26


                           depsellt sJ                                                                                                                                           proviODS of

                                                                                                                                           Ulder                   the
              the                                                                                                                                                 hav the burden
       of                  eslUg  setiOIJ



    29 the aJeged facts support the
                                                                     by
                                                                           stte


                                                                                         prpolldel'ce of                                                     the                       dence t:t
       tb the aJege                                                                                                                     propo                               &e             ocured,
    30
                                                                           fats COtituted                                                          vjo
    31 &8                          may be                                                              Ulder                    Setion
                                                                                                                                                                    tion for wJJcl


                                                                                                                                                             1317.3, 1317.4,
   32 . 1317.6,                             md the                        proJ'                                                   is approprite.  stte
, 33.            depaent                                 MW                   aJ                luve
                                                                                                                &e

                                                                                                                     the          buren of esmblig
                                                                                                                                                                                           Tht!



   34 .                  prepodence ql
                                                                                                                                         the asesent of
. 35            tbproJ1.d                                       &8
                                                                                          tbe

                                                                                   lbouJd be upheld If. basjU) tiely
                                                                                                                     dellce                 t:t



                      the                                                    depaent of
                                                         sJ Qot be due md p.yable
   36           lJoti.


                FOpt
                                                        #:te

   :r

                un/es
                        ae,                                            the &e
                                                                                                                                        its decision                             to        contes


   38.                                    md Ulti thejutJci prOCcdmg is termted
   39 '-t'r 
                        of tbe              Itte                     depsezt.
                          (4)         Acb'cm                   broupt rmder                                            tbe             proviolJ of tl                                             setion
                                                                                                                                                                                    g,




             Cal1fonia 5 

             I.ecul                             Se..ion
             1987 Nev Laws Page 5166

                                                                                                              _e .

             sbal                  be          set for                  tr              at          the earJjest possble da
                                                                                                   the cour calenda                                                              over al other
                                                                                                                                                                                                   and
 . 2

     ea
   4 precence is spcay
                                   preedence

                                             excpt                       matten
                                                                                  on

                                                                                                         whicb eqUR or surior
                                                                                                             to

                                                                                                        gnted by J.w. '!lIe. for
'0 5 

              rensve p eadig and for                                                                                    bearg                            any              such             pro,cdi
                         the judge of the cour with the                                                                                                                                            object
   e.

   1 Slurg
              s.                       be Jet by

                                                             decolJ                           as       to                bject               matter                               atJ:e earliest
   9.poble ti
                                                     the          propose Ene                                            is       di,.ift or reuce  the
                                                                                                                                               to eDSe
                                                                                                                        actiolJ imedately
                            (6)

  10          ate                                                     ent sbal                         tae
                                                                                                                                                                                                        nwer
                                                     public recrds reilect
                                                                                                                                          pro
                                                                                                                                        iD                    prpmient
  11           tJt                     the
                                                                       cJnnicua                                                                                      or         reduce
  12 m.t tle

. 13
                                                     propo

                                                           lieu              of a
                                                                                        Jie                 was

                                                                                                        judiaal
                                                                                                                                                                                                  the                 stte
                            (6)" bJ
                                                                                                                                                                                                   to       submit
. 14           depaent                                            and             the              bosita                        may           jointly eject

                                                                                                                                                               iz          which                    ca,        the
                                   UJtite arbitrtion proeedigs. The
  15' the matter 
                                                to bindig aritrtiolJ,




                                           arbitrtor desgnted by the
   16              depaent

   17              paes
                     eriC8 Arbitrtion A.ation in accrdce withThe
                                                sl
                                                                 the
                                                                   ag
                                                                                          upon


   18

: 19 
                  tion:S                   md                     emblihed                                         rues                                             prour                                            the
   2.              arbitrtion                                     bear sb                                               be. set                 witb                              4$        dlys                 of

                                                                                                                                                                                                            S8 days
   21              pares                             joint electiolJ. but

                                                                                                                    of aD
                                                                                                                         iD       no event les

                                                                                                                                       arbitrtor.                                  The
                                                                                                                                                                                           tb

                                                                                                                                                                                                  arbitration
                                             the dlte of selection 

   22 frm

   23 " bearg                                        nuy                be        COlJtiued up to
                                                  15          d.ys if                     nec


                     the aritrtor s                                          dicretion. Tbe                                                                                of       arbitrtor shal
   14

       25 be                                               upoa substative                                              J. md
                                                                                                                                       decon

                                                                                                                                                         sb                  be          bindig                       on    al
                                                                                                                         review. T1
                                  ba

       26            paes
                     lbtt
                                                      mbjeet

                                                      to          wbether
                                                                                  to         judia.

                                                                                                      there W& sub$WtiJ
                                                                                                                                                                                  review

                                                                                                                                                                                                evidelce to
                                                                                                                                                                                                            sh




                                                                      decolJ' of                                  the           arbitrtor.
                                                       the
                                                                                                                                                                                                                      under
       S.
       28 .          mpport

                                                                      &di                                                                           to         impoJe                       a Ene

                                                                                                                                                                             accrdce with
                                                                                                   by the                 bo
                            . (1)
                                                       1311.                  sb                       be          conducted                                    il



                                                                                                                                                 Coe.                                                                      1 of
        30           s.0l

        31 Cbpter6 
                                              (commencig with                                                       SetiOlJ 11$0) oFPar


                                                                  of Title                     2 of the                         GovemmelJt
        31            Divion
                                                                                                                                       added to the Heath                                                                  and
        33 '           . SEe. 8.                                      Setion                          1317.5 is
        34' Saty Coe, to read                                                                                                                                                       th arcle and
        35   1317.5. (a) All aleged
        36 the regutions                                                           adopted hereunder
                                                                                                                              yiolatioDS of
                                                                                                                                                                    sha be investigated
         37 by the stte depaent. The state deparent,
                                                      with the
                                               refer violations
            38 agreement of the loCal EMS agency, may

            40 The, investigation      be
                                          aienC) for investigation.
            39 of th arcle to the loc EMS conducted
                                                                                                       sh                                                                                       purt
.'     -.--.
        " .                          ---
                                             C.Ulorni. 5
                                             I..gular S...ion
                                             1987 New Laws Page 5167


            1 procures establihed by the state   depaent
            2 be completed no later   th                    and shal
                                          60 days after the report of
              apparent violaon is ,recived by the state deparent.
                  (b) At. the concuson of its investigation , the state
            S deparent or the local E.\i agency         sh
            6. aleged violation by a physci to the board ofrefer   any.
            7 quaty.   asce       unes it is determed tht the
            8 complait is without a reaonable bas.
                                                               m cal

            SEe. 9. Setion 1317. 6 is added to the Health and
    10 Saety Co, to read:
 . 11 ' 1317. 6. (a) Hospita found by
                                          th stte- deparent
    12 . to' Dave commtt or to be respnsble for a
                                                   violation of
              arcle or the regutions adopted         purt
  , 14 sh be subject to a civi penaty by the stte deparent
       13
                                                       thereto
    IS il' an amount not to excee twenty-five thousd dolls
               ea bosita violation.
       16 (12 00)
  , 17 (b) Notwthtadig
                       tor
                       th setion, the diector
   18 refer any aleged vilaon by hospita owned and
   19 operated by a health cae servcea pIa
 . fA member or enrollee to the Deparent involvig
                                           of
                                                    a plan
                                              Corprations
   21 QDess the diector determes the complat
   22 reasnable          ba                     is without
                      The Deparent of Corprations shal
     13 have sole authority and
     14 arcle with
                                       resnsbilty to     enforce
                           t. to vilations        involvig hospita
 . 25 owned an operated by heath cae servce pla
   26 treatment of pIa members o enrollee.      in their
                (c) Physci    found by the bod
   28 or to be resnsble tor, a violation oftoth
                                              have COmmtted,
  29 regu ons adopted
  30 any and al peties which the
                                 purt
                                   thereto
                                                 arcle or the
                                                   sh
                                                  be subject to
  31 imPo and may be subject to a civi  bod      may   lawfy
  32 in aD amount not to exce Bve thousdpenaty by the board
       ea sh
 . 33 for
  34 subdviC)n
                                               doll (SS,
               violation. A civi peaaty impose underOO)
                       Dot duplicate feera fies and the
  35 bod sh      eredt my feeral
 36 impo unde th subdvion.     fie agai a civi penaty
  Z1 (d) Th bo may impose Bna when it                   fids any of
 39  (1) Th violation was knOwig or wi.
 40 (2)  The Violation was reanably liely to rest
                                                                in a
    ..                                      _._.. .-       .-.-

                     Cal1forua S
                     I.cular 5...10n

                     1987 Nev Lav. Pal. 5168


              r-medinard.
                       (3) There are repeated violations'
                      (e) It is the intent of the Legilatue that
              4 depaent ha
           conduct of hOspta          priemergency
                                           respnsbilty for regctig
                                                   deparents
                                                         and
                                                               the
                                                              that
                                                                                   the state


     . 6 . Bnes imposed under
                              th section should not be duplicated
    ' 7 by additiona fi impose by
      . 8 .- rest of the conduct which the feeral governent
                                        constituted a violation of
      .9         th    efecte
               setion. To           thet Legilatu'
             arentsh
          10 Goveror   inrm the Seeta
                    of Health and Hum
                                                                               s intent, the
                                                                            of the feeral
  ' 12 eaent of
         11




  . 13 depaent to th
                                                       the                 Servces of
                                      . reques the federal
                                                     setion and
                     credt any pety as under
     14: setion agai any subseuent   civi moneta
                purt
     16 Sety Act 'for thetosae
        15
                            Setion 186 of         penaty
  . 17 (f) There sh             violation.                                the leeral Soial


              thousd doll (83, ultive maxumaseslit
                                            be a
        18.

   . 19        hosta under th                     agait
                                            arcle and
                                                          00) in fies

                                                               under Setion 186 of the
: m feer 

                               Seurty Act for the sae cicumtaces.
        21     To.    eSectute                nun..'m um lit, the state
        1.. (1) AI toshstte-
                                th cutive
        22 de            ent     do both of the fonoWig:
                                              fies
              concluson, includig judici review                         pror to the fial
    25 action aga a hospita by the federaif avaible, of
                                                ,
    26 Health and Hum Servce under Setion   Depaent
                                               186 of the
        feera So Sety Act (for the sae cicutaces
    28 fty deeed to have be a violation of
    29 the retioDS adopted hereunder.        th arcle
    30 depazeDt action authoried by th arcle),ofremit
                                      beaus      the state
    31 retu to the hosita with 30 days aler coi1clwionand
   33 to
   34
   36 afer the
              aceed
   32 the feera action, tht


                fi
                     as
               tht the                      cuultive



   3S . (2)' Imedtely credt' agai state fies asessed
                                                        of
                                                     porton of    the state fie necessar
                                                                 "'.Pim um lit is not


   3T avalet, of. anconcluson, includig judici review
                     action agai a hosita by the      I if
   38 Depaent of Health and Ht1an                 federal
  -39 -                                   Seces under
              Seon 186 of the federa So Sety
  40          rests in a Sne agai            Act, which
                                                         a hospita        (for the sae
                                                                     California S 12

                                                                     Regular Se88ion

                                                                     1987 New Las  Page 5169

     1 cicumces fi . deemed to have ben a violation of
     2 th arcle or the regations adopted hereunder
     3 beus of the stte deparent acton authori by
     4 . arcle), the amount of the feera fie,
     S ase the              m.arim um lit is not exceed.
                              c:ultive
                                                                               necto
     7depaent
       pur to ve commtted              depaent
                       Any hosita found by the stte
     8.
                    es esblied
                             ' to

                                    by
                          a violation of
                                         the stte
  9 or the retions adopted. hereunder maythhave arcle
                                                   its
 10' emergency medca servce. permt revoked or
 l!
 11 sunded by the stte depaent.
               nti"ic trtive or medca
             (h) Any
                                        persnnel who
 13 bowgly and intentionay Violates any provion of
'14 arcle, may be chged by the loc
IS' a miemeanor.
                                           attorney with               dict
 16   (i) Noticaticm of
17 depaent of the prvions of
                                                      ea
                            violation lound by the state
18
19
          reons to
          deentadopted hereuner
                      the Joint Co
                                          arcle or the
                                     be set by the stte             sh th
                                          OI1 lor the
20 Acedtation of Hosita, .. MI tbesmte emergency
21  l1ed
22 servce agencies.
                       seca and 1o emergency medcal
                                         .utbority,



23     My pel1 who suers persaa ha md any
14 medca f'ty which suers a
25 ' \ violtion of th. atcle Qr the regutions adopted
                                                                    fici   los u a resut of


   trrrg
16 hereuder may rever, in a civi acon

28 attrney
             or recivi hosita dages,
                        s fees and other
                            relief. Tranferrg
                                                                               agai the
                                                                               renable
29 md revig hoitaapproprite
                         which    inpproprite
30    trrs
                   &om
                        oE
                               persns are mae or
                                          in violation of
31 th arcle and the regutions adopted hereunder
                                                                     ref
31 , be lile lor the renable chles of the recvig
33    trerrg    hospita for provig the servce
34 which should have ben provided Anyand              cae
35 potentiy haed by a violation of arcle or the   persn
36 retions adopted . hereuder, or th        loc dict
37 atorn or the Attorny Genera may thebrig a civi action
38 agai the resnsble                    nti trative or hospita or
39 meca persanel, to enjoin the violtion. and      if the
40 bVUDol1 ises,                               the cour             sh award reunable
. ' .,                  . ,
 . .
                             , .                 . .               ... .. .   .,




            eal1fon1a S 

            a.gular S..110G

            1987 M8V Lavs 'age 5170


            atiorn      fe. The provions of th subdvion are in
-r

     . 2 addition      to other civi remedes . and do not
          3 av.ubilty of the other remedes.
                                                            lit
                                                          the
             . (k) The civi remedes esblied by th          section do
     . 5 not apply to violations of any reuiments eslied
     . 6 ' ID county or coanty agency.
       8 Saty Coe, to       re
       '1. ' . SEe. 10. ' Seon 131'1. 7 js. aded to the Health and


       9 1317.7. Th arcle . doe ' not prept any
   lQ       goeren  agencies               acg
                                 With thei authority
. .11 . &om regutig. emergency cae or patient           trers,
                                   requients of thspc    .
 . 11 
  cludi . the impotion of lDore        duties,
     13. coDSt with         the                    arcle' and its
. 15 reuiements
                    retion
     1.. implementig"
                  impo          '
                        by the Med-C progr
                                                 Any . inconsent
     16 preept" th.                    to Med.
     17 beefcies To the ext ' hospita and physci
                             arcle- with




                        cotrtu
     18 enter into
     19' impo mor stgent
     10. con       agreements
                                           trr
                            relationsps with counties which
                                       requiements those
                                sh contrL
     11 . SEC 11. SetiOD 1317.8 is added tc) the He th and
     12 Saty Co, to read:
     13.          . If any provion of th arcle is deced
            " 1317.&
     !4 unwf     'Or unconstitutiona in any judici action, the
     15 re"".ini"1 provions of tb chapter sh rema
         efft
     28 SUty Co, to         re
     rr .' SEe l! Seon 1317.9 is added to the Heath and
     29' 1317.9. Th stte' ' dearent sh adopt on an
     30 emerenc: ba regutions to implement the provions
     31. of th are by July 1, 198.
     31 . SEe. 13 Setion 1317.9& is added to the Health and
     '33 Saty Co,         to read:
      34 " 1317.9 (a) . Th arclesh not be consed
      3S alterg or repalg Setion 24 of the Buses and
     38  Profens Coe.
                 Noth in, Setions 1317 et se. and 179. 170 et
              (b) .
 . 38 ..    se. sh prent.. physci, frm exercg hi or her
     39     profeona judgment in confct with any ste
     40 regution adopted           purt to Seon               or local
                                                       1317 et se. or
-- .- ---         . -.-.'."_...... ....,.----
                         -"' "            .. ,.
                                          " ....
                                              ;:                         !'- --.. - -                                           :;        - ..., .

                                                                                                                 California 5 12

                                                                                                                 Regular Se8l1oc

                                                                                                                 1987 New      Page 5171  La.
            1 179. 170                 et se., SO long as the                                                    judgment conform with
            2 Setiom                    1317, 1317. 1, ID                                               except for subdvion (g)
            3 SetiOD 1317.2 and                                               we                                 te    scang                            complice
                                    sute or loc
                                                                                                                                           iz
                  With      the             regut:olJ would bethe
        5 bet               interests of the patient. .
                                                                                                                                          contrar to



            . SEe.' . 14. Chpter 2. (commencig, with Setion



            i C1
              . U
       "1' . 179.9) is added to Par 1 .of Divion 2. of the Health
   ' 8 and Saety

   , 10.
                                               Co, to re
                                                                  TQ EwCENCY MEICASOVICES

.. 13:                17W. 98e                                       Ii- erl!sey Meeieal Serl"e iW
              J.aresy uea                                         iBt8 SM          eMtt.         8SBe)'
 . 15                                                                    sle, '1' 8e8 .I'l'uI'ritea e, .e
       16     uli_e,
              fw .w ..




                 er.
              T\RI'
                                                     fe tI                    teimsW'semeftu I'e._ed

   18. .              179.9, &cbcoWJty
                                                                                                lDY embJi
                                      Emergency
   19. Medca Servce FUld,                                                                                                                      reslution by
  . m 

 I 11          bO 01
             lbe
             avaJe                                  mpri.
                                                                                    upon adopt:oll of

                                                                                          71e           moliey               iz the            Fud shal 

                            rmbunments ' reuied by
                                         for                the

             cbter.   Amd         drninic:
                                   71e
                                                  coWJty,           sb              be                                tered by                  acl
   S1'       expt tbt coWJty eJecq.        sute admter                                              to
   14        Jbmetcay mdi                                       eject to  t servce program DUyal
                                                                                                            luve the 




   IS b.ve                 iaEmergel1cy MetC6 Servce Furd .drniniftered
               the ate.                                                            an.f'ini"
             rebun
   26
             by                                        Co                of                                termg the                     lid sb




                                                                                     sh                 amoWJt
                                               by           the                          up       to 10
                                                                                          be utied to reiburse
                                                                                                                  percnt of                       the
 , IS        ofthe /id.                               The fud
   29 physci                                                 8e"ia.-                 for paents who do not mae
. 30                                                           ieea                                              ISMes iaettea
             payment for 


                     il8S ef e=rsency medcal servce
                                                                                   .. fe 

                                                                                                                                                             . te
  31

  32
             '1'8-
                      i9       ,r8.wsII
                                  AA
                                              paj"Iest te                                fe te
                                                                                                                                     ee-e 8A


  33

  34
                  el'''_811t
                                  eril
                                                       ef           He8lYi Sep\.ieea                                           ef                       th



                                                            th fw. .. th
                                                                                                                               ,asallt Ranfer

             ,ra ._SM ee8"- iRes                                         iB    Seesans                                         1317. 9&, iaelt:h"

            pu.
                                                                                                                        te
  36                     tL'             md lO other emergelJcy medcal servces
  38 tb mODey
                                               determed by 

                                                            COW2ty.          of
                                         in the fud sh be ditrbuted to physicia
                                                                                                  acl                                    Two-thrd


  39 Cor emersene servce provided. by al physicia, except
  40        th
           physci empl()yed by county hosita or ditrct
..   ..'         .::' ,.:             """' . ..                                  ..-
                                                                                  ..




                            CaUforna S 12
                            1.lUlar S...1011
                            1987 Kev Law. Pa.. 5172


                Ospit8tr: hi eneral aCute Ca hospita tht provide
           2.. bac: or comprehensve emergency servces up to the
          .3                tie
                   the patint is stbiled and one-thd of the fud
            , sh be                 eurspsrasMtc
                                      ditrbute..
                                                        'PiMt for
     .. 50 ,                othr.     ezeTgeZJcy                           medcal               ; servce pure$
     . 6.-                  qeterm bye.cb                                       'Pe source. of the money
                             e fUd sh be
                                                                         COWlty.

                                                                ent made for
                            p1.,98h.as provided in Setion
            1.                                                       th penaty

      " 8,.                                               146 of the Pena Code.
            9. .                                       irwas88 ef   =R
                                                                        arleftey                                        4!
 . 10                       Me..ell                    \.ec3        Ii sM        ,ePisrmea
      11:                   ge,.                         ei        Heal. Ser\;ec
                                                                                           ee

                                                                                            eftt                 aepA
                                                                                                                               It Yt


      12 .                  eeft..e     wH                    ,Pi-;ate eft88ca  !lMte7J!ae .. fe 81.
                                                                                            8f .
      13 ..                   ,afte81                  ei Yt        JeM.e ae.eeu&r    ali- 'er
      14.,..,ter.                                                                                                te



      15.                   Dep.t eBt Health Sel'ila!l,
                                                  St                                            ei
  . 14     1'f.9b. . &c COWlty                alid. OJ2 Janua                      emUsg
      1'%    98, and, C?n each Janua 1 thereafer, sh report to
   18 th Legitue ' on the implementation and sttu of the
   19. , Emergency Medc: Sece Fund., The reprt
   20. mclud, but Dot be limJted . to, al of the foUowm:
  11     (1) The fud balc:
  12. diburunder the progr to physci
                                                                                    and the amounf of moneys
                                                      8al!i..-
      for other emergency medca servce Pur.
                                                                                                                             and
     23

 . 14 - (2). Thepattem and dibution of cla and the
  !S pecentage of c:1a paid to thos submitted
     2f' physci
          (3) The amount of moneys avaible to be dibur
                      8al!it., the               of the tota                               doll amount
                                             rAI"'                 submied and the percentae at which
               were rebur
     IS alowable

     29 . suc:
  30   (4) A stement of th policies procures and
  3L retory acon taeD to implemet and nm the
  31 prosr under th c:hapter.
  33  1'7.9 (a) Physc: wig to be reibur
. 30 sb sumit te     Se'8rE8at       thei los incued due      te

  35, . to patients who do DOt' mae any payment for servces
                                                                                                        pa
                                                                         loss, .
  38 and fo whom DO rensble tDd                  m-es any
  38 40 pet of thos
       paymt. No                  be                te physci sh                                     rebur
  39    (b) If, afer payment frm the fud, a phYDc: can
  40. relWbly exp                                                        payment &o the patit                                          or a
;'   ..,'.. ".''., :;' &' '
              ,-              - .             ,,        -. .." - ,' .'. ,
                                                        .:                  _.. ..--.
                                                                            : ,




                                                                                         Calilornia S 12
                                                                                         Regular Sudan
                                                                                         1987 Nev Law. Page 5173

                             1 reDSble pa, then the physicia sh contiue
                               mae efort to, recive payment, notwthtadig
                  3 prous payment from the               afer payment !rom        fud.         H,
                     the fud, a physci is reUnbuned by
                   ' 4:
            , , 5 rensble payor p the physci sh noti          a patient or a
                                                                                                                the
                             eBt HeaIt: Se
              . : 1 fae' suon
                               DepA.               ei
                                                          and the physici"               fwd
                                      ('lai"", to, the fud sh be reduced
                     acrdgly. II the event there is not a subseuent
                                                                 of



                 t. samian of a 'cl   fo" reiburment of servces by
               !Os ' tbfucfpUItto th chpter by
                                                        the physci with
                            , the physci sh reimbur the fud in an
                       1J' . ODe 


             : 12             amount'        eq, to the amount' collected from the patient
                       13,      F other, payor,
                14 reburment reved &om         more  but not,
                                                            the amount of
                                                  the fud for cae of tht
                                                                                               th
           ' 15
                       patient.
                18, '" (c)' For th P        of th chpter, reimbument
                IT. . for              lo
                                mcued due to paents for whom no payment
              : 18 , . is recved sh be rested
                                                 to the followig:
           : 20 there is 8i'mible prvate orphysci   ba
                  19,:               (IY   Patients , for ' whom the
                                           public thd-pa soure
                                                                                                          inquied


         " .U : of paent.,
              !3 I (3)
                  14
                             rebat
           , ' a. , ..,. (2);. Patients for wh m the physci' expts
                                         for the servce provided   to recive
                               Patts lo whom the physci ha biled for
             25 paymea or. ha .. bied, a.
             26'             th(4) pa.
                                   Patients Co
                                                  reDSble private or public
                                                  physci
                  28, renable efar to collect payment.
                                                                      whom the                            ha made
              29 ' nai"", which have ben rejected for payment by
                                (5)

                the patient and any           thd pa.
              3-1 For .PUl of thrensble
            . 32 the
             33' : ,. (A).
                                      rollow
                                    chpter, rej tion mea either of

                                       Act notication frm the
          , 34   th pa,. or the servce
             35, wi be mae lorIOvernta
                                                                                                    pen, resnsble
                                                                                   agency tht no payment
                                 rendered by the provider,
        . 36 . (B) Th pueofsi month'
             :r
                             phcf    tie frm the date the
                            ha bied the patient and mae reaonable
             38 eirb to obt reburment frm the resnsble
             38              fb pa
                                or ' governenta ' agencies, and durg
             04' ,wbich.'tfe the physci ha
                                             not be wholly, or in par,
  ' , '
       ..                                      ---- . -- ---         ..               -- ..
                                                                                              ,       .. ..




                     Cal1for1la S 12

                       cular S..doft

                     1987 N.v Lav. Page 5174



               1 reibured                     for providig the servceS rendered.
                 (d) A litig of patient naes sha accmpany
             3 physici' s submion, and those naes sha be given
           " fu confdentity protections by the achJnterig
        . 5 ' agency. '
           6 ' 1797.9B One-th of the Emergency Medcal
           1. Servces Fund sh be                par_eftt                dibun e,
         ' 8 eipP8,sfteftatc                                           assl'iL                         sefies
                                                      M.
                                                                                                                      Ollif'3P'a
        . 9 
       Meseal .     t_etJ CeRl- sS8                                                               aee8faanec
                                                                                                                          e,


        lOt.        Nluii- i!is8      See8sa          ei
                                                                                                                          Weec
                    J-- ahl8s Csse, 1'1'81'S1'888                                                      ei 4! 




                    tM                                                                                             a,prel'sf88ftate
   , 11' 


        12.                 ei

                    iluiil at I'aseau.
                                          elllerlese)" Je v.eel r8ftaefta
                                                                                                                                 iekal
                    pur98.
                        u (a) It is the intent of the Legilatue
        13
                                                           for other              emergency                        meccal S#rvces
   , 14"                                    determed by                           each           COUlty.
        15, 1797.
  . 16 liplied                            cot-eftcient system.                              of        admtion oftht a
  . 17 ' chpter be develope .,                                                              aep                    eftt
        1& maum amount of fud!                                               may be                   utied to reimbure
                                                                                                                               so that the

        19 physic: and hospta 

                                                                                                                                  medcal
                                                                     ae,-.eat
                                                                          for other,                   emergency
  , 20. M!mce 

                                                       The                                             nm;"isterig agency
                                             tie
                                 pures.
    21- sh esb                                   procedures and                                         schedules for the
    22 '            submJon and processg 9f propose reiburment
  . t3:-            reues submitted by, physci                                             The                      88!pitti
 ' U 
              scheduJe shal provide                            fa diburent of al avaiable
    25 money                in the fud at lea anuay on a pro rata
                                                      bas to
   26 al appli tJ who have submitted acate and complete
       data: for payment by a date to be esblihed by the
   28  ae,M to_ eat adrterig           It is anticipated that               agency.
 ' 29' the moneYs in the Emergency Medca Servces Fund
   30 wi be sucient to meet only a &aon of the requests
   31 for reburment &om physci               88!,it . In
  32 cicutace"
  33 sh equitably prorate paymentJ .cJterig
                                                                                                      8M

                              e8'               agency
                                                the          aepa.

                                   so tht the amount of
, 34' payment frm the fud is bas upon the magntude of
   3S the physcia'                                aepWHf!ftt 8S!lital'
   38               dnirder              nees, request records
                                           g agency           may,
                                                                                         loss. The




                    and docentation to support                                                           ' the amounts of
. 38            reiburment reqesed by                                                                                           8s!l'itat,
                          admterig
                                                                                         physician 8M
 ' 39' and the 
                 aepw !lieftt                                                         agency          may review
  40 ' and audit such recrds                                           tor accuracy. Reimbunements
.,      .. '%
       , .. ,
      , ,                                  --                    -...-.-

                                                                                                   Californa S 

                                                                                                   Recular S...ion

                                                                                                   1987 New Laws Page 5175


                  1 reuesed and' reimburments made                               are not                        tht
                  2 suported by                     recrds may be denied to and recuped
                  3 from          physci                                            tti . Physcia
                      found to submit reques for reimbursement ae!pitt
                                                            8M              ell i
                      inte or unpported by recrds
                                                                                                               . 8M

                                                               tht are
                                                        may be excluded
                      from sumittg futue requests for reimburment.
                              (b) Ea          provider oE health servces whi.ch
                                                    recei.ves
                              th
                  8 payment under
            , 9 rerds of the lervchpter sh keep and mata
             10 . rendered'
                         the date, and any. additiona inormon
                                                                              redered the penon to whom
               .e, Lest arrn;n;q;e                               the
             11

            12 requie, for a                      may, by reguation,   rig
                                                                                    agerJcy


            13 lervcewa                 thee yeu from the date the
                                                   period              oE

                     provided
            14MPr;n"
               (c) Dug norm workig hour,                                                                 the      .e'.8Beft
            15                      terg
                    .Y!2rT;"D tion of .
                                                   .geJCY            may mae any intion and
            16
                                    s or physci' s boks and      hospita'
      , 17 rerds neeed to
                                                            ca
                                out th provions of th chpter.
        18 A provider who ha knowigly submitted a
      . 19: for               reibur
                             sh" be guty of civi fraud.
                                                        request                                                 fa
        . m . SEe.              15. Setin
                                       the Heath and Saety Coe
          21 is amen to rea
                                                                 179           oE



            22  179. . (a) Th medcal diection and magement of
            23 81 emergency                    medca servce syem sh be under the
            !4     mecal contrl  the medcal diector of the loc EMS
                                                    oE



        : 26
                     Th medca control
            2!' agency.
                       rTD"" er:
                   followig
                                               be             in the                  sh mata
                (1) Prostively by wrtten medcal
         2B procedures to provide. stdads for patientpolicies
                                                         cae.
                                                                and
            29. (2) Imedtely by diect voice cemmumcation
       . 30 betwee a certed EM-P or EM. n and a
        31. . emrgency physci
                                                        bas hospita
                                      an authoried regitered Dun
        32 and,' in the event of teporar unvaibilty of voice
        33 commumcaoDS, by utition by aD                                                               EM.P or EM.
        34 of authoried Wrtten orders and
        3S PUJt
        36ca and        (3) Retr
                                     to Setion.
                                        tively by
                                                  17984.
                                                   policies esblihed
                                                                             mean             ot   medca audit of field
                                    contiuig eduction.
        38 . (b) Medcal contr l sh be with an EM syem
     . 39 whi                   m;";", UI stadads adopted
                               complies with the

                  the authority. and which is establihed and implemented
         Cal1foru1.a S 12

         RelUlar S...1oa

         1981 Nev Lavs P I. 5176



       1 by      the local EMS agency.
                In the event a medical diector of a
          questons the medical effect of a policy of abas
               (c)

                                                       localstation
                                                              E
       '" agency, the medca diector of the bas station shal
          submit a wrtten statement to the medca diector of
      6 loe EM agency ' requestig a review                  the
                                                             by a panel of
      7 medca diectors of other bue sttions.
                                                            Upon reeipt

      8 the reques the medcal diector of loc EM agency
 . 9
     10 diectors' of bas sttions convene a pael of medcal
         sh            a9""     promptly

                                  to evaluate the wrtten
     11 sttement. The panel         sh
                                  be compo of al. the medcal
     12 diectors of the bas sttions in the region, except tht the
 .   13 loc EMS medcal diector may
     1. mebers.
                                                  lit
                                                the pael to five
     15 Th subdvion sh. rem
     16 authority adopts more comprehensve regutio.ns
                                                 unti the

                              subdvion.. ! Saety
                                                 in efect    only


     11 sunee th                                      tht
         SEe. 16.' Setion 1198. 110
     1&' .
                                            of   th Heath and
     19 Coe is amended to read
  20.       119110. A Ioc EMS agency may develop trge and
. 21    trer     prtocls to fatate prompt delivery of patients
     22. to approprite desgnted fac:ties with and
        area of Jurction.                          without its
  24 fac:ty sh include, but sh not be lited
                                     Consderations in
                                       desgntig a
  25 followig:                              to, the
  26
  rt          (a) A genera acute cae hosita.
                                          constent abilty to
                    physcian and servce for al emergency
        provide on-cal
  2B patients regardles of abilty to
  29   (b) The suciency of hospta
. 30 tht al
                                     pay.
                                       proures                           to ensUre
                  patients who come to the emegency deparent
 31 are         YA",ined and evaluated to determe
                                                  whether or not
                condition exi.
 33
 32 an emergency
      (c) The hosita.s complice with loc
      .Coreuiements.

 34 protoc             gudelies and trer
. 36 SEe. 11. , Setion 1198. 112 of the Heath and Safety
          is amended to read:
                                                                    agreement
                                                                             E.'vS



 38 119.        (a) The loc EM agency sh ;
 39 Iy -I esbli gudelies and stadads          Jan1la                e,
                                       for completion
 40 and operation of fonn traner agreements between
 .j 

.:
 . ,.                     . ....   ...           -------.- _. -                         .. ., ;:




                                                                                   Cal1fornia S 12

                                                                                   Regular S...1on

                                                                                   1987 New Law. Page 

                                                                                                                         5177
                     1 hosita
                 2 Juctionwith  vag levels of care in the areatheof
                           of the loc EMS agency constent with
                3 provions of Setions 1317 to 1317.9a, inclwive, and
                4. Chpter 5 (commencig with Setion 1798). Each local
                S EM agency sh solicit and consder public comment in
                .6
                        g gudelies and stadads. These gudelies
                7 iDlude provion for suggested
                        the ty.           of paent,               irtial patient
                                                                                   wrtten agreements                     for
                                                                                                                treatments,
                      of interhospita cae, and asiated
                9 requiements.                                                                     cue



                    trer
           10 logitics for
           11 pant :;. Iet evaluation. and montorig of the
                                                             esta8
                                                             eM            al!ftf)'
           12
                        lUadtn      aeee.ar iBiW
                                           fe
                                                       treat!eftt3
                                                                                               sM .. 



      . 13 
            8eeeraul!e        leeS8a
                                                                                          e8


                        replas8W aa8ptea
                                                 wH th 

                                                        .ekreftee
. IS 

           14
                                               eepM'aelU     ., th 

                        iees8a i31'. 9 '8\" ePBI aeees,&I DSaiPW:!HAnt
  . 16 
                .8&_ea.                                 e8 .e
              (b) Notwthdig            provions of
               in additin to the provions of Setion subdvion
          18 aDd                                                 (a),
      19 acte .cae hospita
      20. ' (aoD1enc: with Seon l2)           under Chpter 2
                                             of Divion 2 sh not
                                                                    liCe
                                                     1317 , a general


      II trer' a persn for nonmedcal reMOns
      12 heth faty unes tht. other                      to 1D0ther
                                             faty    reivig
      13. persn. agee in advlDce of the
                     war!r.cr. Draf awaelil;.J
                                                                 the
                                                     to accept the
                                                    Mai.fi tM. 8e
                                                                                   trer
                                                                         t:r.
      Sf

                     atl.jeet    ,Hsal; aear,.
     IS                SEC. 18. SetiOD 1798.D is added to the Health and
                     Saety Co, to read
     28
. 29 trer
                       179.D. Any aleged violations of
                                                         loc EM agency
                              protocls, gudelies, or agreements
     30                 es8l     It te           8leaey.   Ie      M.
     31
                              e8IBpletea ..ui                if-:e,slaS&ft
                                                                  eM



                      81.s8ft rep8rtea. Ii th .. 8i
                                               &9

                                                           lo EMIe
  32
                                                                  a,pareftt                               th'


  33. evalUted by
                                                             ftl)l                 eM                             shai


                     ha
                                                the
                                                                                                                local EMS
                 sh tae
                                                                           ..ency. IF               the
  34 ..em:

  35                                  violation ha oced,
                                          concluded tht a
                        whatever correetive                                                action it deems
  36 appropri with its jurction.
  37 the dict                            attorney under Setions
                                                                                   includig referral to
                                                                                   1798.
 38. ID                   sh noti the State Deparent of 20Health
                                                            and 1798.
                                                                 Servce
 39 if it concludes                           tht my violation of Setions
                 1317                    lusve, ha ocured.                1317                                           to
, .             . "                   --------.--
                                           ..




                 California S 12

                 Regular Sel8ioa

                 1987 Nev Law. Pa'8 5178


                     SEC.        tion 1798.2 of the ' Health and Safety
                                   19.

              2 Coe is amended to read:
              .3 ' 1798.      Whenever any person who ha engaged
              .. is about to engage, in any act ' or
                                                           practi:e which
                  constutes, or wi constitute, a violation of any proviion
              6.. of     th
                         divion, the rues and regutions promulgated
         '1       purt thereto,
       . S. protocls, gudelies, or
                                                              . or        Iotrr
                                                                             EMS agenc madated
                                                                                  agreements, the
       , 9. .    superior Cour in and for the county wherei the                                                              acts or
             10 pratice tae plae or are about to tae                                                        place          may issue
             11' an iD             ctn or other approprte order restraig the
             12 conduct 01X application or the authority, the Attorney

             13 Geeral or . the ditrct attomey of the county. The
         14
                 pree                           ' under-
         15, Chpter 3 (commencig with Setion 25) of Title 7 of
                                                                  th setion sh be govemed by
         16 Par 2 of the Coe of Civi Procedure, excet tht no
         11.
      . 18.
         19     re
                undertg sh be reqed
                        SEC 20.

        fA 146. m addition to the
        21 146 an
                                           . Setion 146 is added to the Pena Coe, to

                                    additiona                 asm1
                                                                           asents                      levied by
                                                                                              im'8f1eS of one dollar
                                                                                                                            Setion
                             impo
                                                                            ent iI

        22 (81)                        county upon the
                                   bo 01 feP'/&f'seaAn
                               ;:. may be 
                                            by    eacb



        24 asent, impose by th setion shasupervors.
        23      adoptiolJ of                       reJutiOlJ by                 the



        25         !BeRth .. Yt
                ee ee

           iierlesey Ue8:eti
                                  Treal se,e.!it                     St                                fe
                                                                                                                 be

                                                                                                                             !i
        26                                                        Sef''iees                          ereates    Seese!!
        rr                98a      ei                      Health    M8           gak
                                                                                                                      e,
                                                                                                    Cese. collected and
        28      dibur                 as        providiM              Chapter                1.      (commencig with
        29      SetiOlJ          17998) ofDiviolJ                                           olthe Health and Safety
       30 Co.
                                                                                  1.



       31  SEe. 21. (a) No reiburment is requied by ths
       32 ac
       33.
                  put
                Cami  to, Setion 6 of Arcle xm B of the
                 Constitution for thos cots which may be
       34 mCUed by a loc agency or school ditrct beause ths
      . 3S ac creates a new       or inction, chages the
       38 d8tiOD of cre or intion, changes the penalty
                                                                  cre
          for a
       38 iDction.
                               cre
                      or inaction, or e lbn'"A tes a  or.                                                                  cre
       39 (b) ' The Lelilatue                                      intends Setion                           of    th act to be
       40 declaatory of exitig                                            law which                   -requies cert
  ---,. . , .. .-. . ..---...--
   --.
   .-.'--'--           ... --.. .. ...........-._.. .­
                                   ....
                                     .-- .- - -




                                                                  California 5 12

                                                                  legular Se.sion

                                                                  1987 Nev L8WI Page 5179


          1 IOvernenta ' payors, includig counties under Par 5
          2 (commencig with Setion 17(0) of Divion 9 of the
             WeJIare and Intitutions Coe, to provide . medcal care,
          .. includig emergency medcal servces, to
             patients unble to pay for medcal servces. Therefore, it
                                                                                        cert
             is not the intent .of the Legibue in enactig Setion 5
             of th. act" to madate either a Dew program or higher
             level of servce and therefore DO reimbW'ement is
                                   th
          9 reqed by act for these . provions
         10 Setion 6 of Arcle XI B of the Caorn Constitution.
                                                                                   purt'
                       Notwthdig                         tion 17610 of the        Governent
       . a. Coe, it the Commicft on on State Mandates determes
        13 tht" th act conta other Co madated by the state,
        . 14 reburment to local agencies and school ditrcts for
          15 those      co shbe made pursut
       ..,16 1commencig with Setion 175() of Divion" of Title                      to Par

        19-
              cl lorGovernent Coe.
        1'% I of the
        18
              thousd doll (8S,
                                   If        the statewide cost of the
                              reiburment doe not excee five
                                                 hundred
                               OO).. reimburment sh
                       .-- -.th
              made'0',&om     - .
  State Mandates                         imc Fund.
. 1



                                                     Approved, S.pC..ber               7. 1981

             APPENDIX 3

AGENCY COMMENTS TO THE DRAFT REPORT
           DEPART.\1E:'T OF HEALTH &. HLiM:\:\ SERVICES
                                                                           Public Hec Ith Service

".""0

                                                                           Memorandum
 Date         JuL. I 5 198
            Deputy Assistant Secretary for Health Operations and

            Director ,Office of Management

S ub)ect    OIG Draft Report " Patient
            and the Perspect i ves of Heal
                                          Duping After    CD: Assessing the Incidence
                                             th Care Profess ionals " Q\1-12-88-00830

            Assistant Inspector General for Analysis

              and Inspections, OS



                 We have reviewed the subject draft report and concur wi
            conc 1 us ions and recommenda t ions.                             th its


                                  Wi 1 ford J. Forbush
... " .                                         -. .. ... ', " ":,, :.,,.              - --                      ,//,:
            Ut.ART,"tE.'TOf HEALTH" Ht.. 'tA:\ SERVICES                                OHlce o! !""e Se:re:ar.
                                                                                          e./h0
                                                                                       Wasnlngton . D C 2C20'
                                                           . 'i
                                                             ''- f'   !)l
          MEMORANDUM                 Orfl r CF :. :
                                                                                                 DIG
                                        8a JUL t 3            A.14 9' 

                                                                                                  IG.


                                          a.l 9'V

          DATE    . June 13. 1988
                                                                                                 AIG-
                                                                                                 AD:\t
          FROM        AUdr y F. Mo                                                               OGCrIG
                      Director
                                                                                                 EX SEC
                      Office for Civil Rights
                                                   DATE SE

          SUBJECT:    OIG Draft Report: " Patient Dumping After COBRA:
                      Assessing the Incidence and the Perspectives of Heal 

                      Care Professionals,
 OAI-12-00830

                      Richard P. Kusserow

                      Inspector General
                     . Office of the Inspector                    General


                     We have completed the review of the OIG Draft Report

                     entitled " Patient Dumping After COBRA: . Assessing the
                     Incidence and the Perspect
                     Professionals, . and submit ves of Health Care

                                                 the following comments for
                     consideration in the preparation of the final
                                                                                                 document.
                     COMMNTS:

                     Page 2:      The first full paragraph refers to criticism
                                 of OCR for not providing facilities with

                                  formal technical assistance regarding their

                                 obligations under Hill-Burton. We believe

                                 that mention should be made of some.
                                                                  

                                 efforts in this regard. Although       of OCR'

                                                                     OCR has not
                                 been able to provide                       techncal
                                                                  assistance to
                                 every facili't, our voluntary compliance

                                 acti vi tie. have provided awareness and
                                 technical assistance to many hospitals and

                                 o'ter segments of the communi't concerning

                                 their rights and the obligations of hospitals

                                 under the Hill-Burton Act. For example, in

                                 one of our Regional Offices, the fOllowing

                                 contacts and interviews have been held with

                                 various groups in an effort to understand

                                 their perspective of the problems of patient

                                 dumping, as well as to explain the role of

                                 OCR and the obligations of hospitals:

                      .. .




Page 2



                             Representatives from a union local of

                             the Hospi tal Worke ' s Union

                             Representatives of a local Congressman

                             office
                             The President of t e Health Federation

                             of Philadelphia

                             An Assistant Dean , School of Medic

                             Director of Local Governent    Affairs at
                             a maj or Uni versi ty

                             Hospi tal   Administrators
                     Also, in another Regional Office, community

                     based organizations that represent

                     consti tuencies that are most likely to. be
                      dumped" have been participants in meetings

                     wi th   OCR staff. The    groups included the
                     Chicago Urban League, Mexican American Legal
                     Defense and Education Fund , Traveler AID and

                      Immigrant Society, Chicago NAACP, and the

                     American Refugee Committee. In 1987
                     convened a " Patient Dumping " seminar ,designed
                                                              OCR

                     to inform local community and advocacy groups

                     of the Hill-Burton obligations of hospitals.
                     As a result of this seminar
, OCR developed a

                       patient dumping " Task Force headed by the

                     Chicago Urban League. The Task Force assumed

                     the responsibi1i ty, through its memberships

                     and varied constituencies, to inform OCR of

                       patient dumping " problems in the Chicago

                     MetropOlitan Community. OCR is an ex officio
                     member of this task force.

          Page 3:
   The second paragraph contains the phrase

                         referral of the hospital to the U.

                     Department of Justice for criminal

                     prosecution.... This should be revised to
                     eliminate reference to " criminal
                     prosecution. Remedies under the   Hill-Burton
                     legislation are limited to specific

                     performance rather than monetary or criminal

                     penal ties.

                                               ...


Page 3




          Page 9:     Reference is made to OCR' s participation in
                      drafting the regulations formally implemen­

                      ting the COBRA provisions. To date, OCR has

                      not been involved in this effort. Should
                                                          
      we

                      be requested to participate in any way in

                      this drafting process , I will have OCR staff

                      available to assist in the accomplishment of

                      this task.

          Page 18:    Item 2 recommends that R
 emergency room

                      records clearly delineate if a patient was

                      transferred and from what source; or

                      transfer leg should be maintained. This
                                                         , a
                      will effectively aid the OIG, HCFA and OCR in

                      conducting compliance reviews to ensure that

                      all patien s transferred from other emergency

                      rooms were tranferred in  stable condition.
                      It should be mentioned in this paragraph that

                     the   receiving hospital i8 expected to

                     maintain the information identified in this

                     item. We agree that records of patient

                     transfers must be maintained, and that such

                     records will aid in the conduct of complaints

                     and compliance reviews. However , for this

                     information to be of maximum benefit, the

                     records should contain information regarding

                     the reason for the transfer whenever

                     possible.    This information will be valuable
                     in identifying the case. of questionable

                     tranfers and provide the official record

                     wi th the 81at_nt    of the .ending hospital
                     regard1ng the reason for the transfer.
                     information may result from telephone
 This
                     conversations that are to precede the

                     transfer frem on    hospital to another, or
                     from records tht
                     transferred patient.may accompany the

                     The reference to a R transfer 10g R should be

                     expanded to identify the
                                               tye  of information
                     that is expected to be collected.


                     Item 3 focuses on outreach to professional

                     association. We believe that outreach ef­

                     forts should extend to communi
                     advocacy groups' that reach the ties and

                                                      potentially
                     affected individuals. As mentioned in item

                     1, page 17 of this document, R affected
                            .."


Page 4



                    parties may be made more likely to report

                    violations if they are aware of their

                    rights. .      Rather than relying on this
                    awareness to resul t from posted notices in
                    hospitals, we could effect increased public

                    awareness of rights under COBRA and Hill-

                    Burton by providing the information directly

                    to the pUblic through various forms of

                    contacts, including the mediums of radio

                    television , and public meetings. Some of
                    OCR' s efforts in this regard are outlined in
                    our comments . for page 2.
          If further discussion regarding these comments is

          required, you may contact me or have your staff contact

          Patricia L. Mackey on 245-6118.

......,



             DEP:\RT.\H:\T OF HEALTH &. Hl' '\A:\ SERVICES                      Health Care
                                                                                FInanCing Aar-t"'stra!!c



               JU 2 5 /98                                                       Memorandum
  Date

  From      William L. Roper , M.
            Administrator
  Subject   OIG Draft Report: " Patient Dumping After COBRA: Assessing the Incidence and
            the Perspectives of Health Care Professionals, OAI-
                                                                 12- 88-00830
            The Inspector General
            Offke of the Secretary

            We have reviewed the draft                 he report to be quite informative and
                                         audit and find 

            indicative of the diffic:lty of tracking
                                                  and monitoring patient dumping. We agree
            with the thrust of theOIC's finings and recommendations.
            We have taken a number of steps towards implementation of the report'
            recommendations. Our specific comments are attached for your consideration.
            Thank you for the opportuity to comment on this draft report.

            Attachment
   eIG Recommendation


   Report i n9 of    suspected cases of pat i ent dump      i n9
   of participation (COP) in the Medicare program inshou 1 d be made a cond
                                                      order to increase
              it ion
  report i n9.

  HCFA Conents


  As the eIG has indicated, HCFA has accepted
                                              thi Provider
 however , make this new requirement part of the  s reconvndation.
                                                           Agreement We wi 11
 Regulations (42 CFR Part 489) instead of the hospital COPs (42 

 482). Section                                                    CFR Part

                489. 24(f) of the recently published Notice of Proposed
 Ru1emaking (NPRM), BERC 393- , Participation in CHAMP
                                                       US and and
 Hospital Admissions for Veterans, Discharge Rights Notice,    CHAMPVA,
                                                                  

 Responsibility for Emergency Care, would require hospitals whichHospital
                                                                  receive
 patients transferred in suspected violation of the patient dumping

 requ i rements to                   the i nci dent to
 and to HCFA , or be subject to termination from i the
                        report
                                         the Med, care State survey agency
                                                       Medicare program.


 OIG Recommendation
HCFA and the Office of Civil Rights 

require hospitals to post notices in (OCR)
                                      their should use rooms
                                             emergency existing authority

                                                             informing

pat i ents of     thei r ri ghts       under COBRA and the Hi 11-
 indicating a local              number to call with complaints.
                                                                  Burton Act and

HCFA Comments


We are confirming with the Office of General Counsel whether HCFA has the

legal authority to require hospitals to post such notices.


OIG Recommndation

The COBRA regulations should require that 

clearly identify all transferred patients to and 

                                                   all emergency room (ER) .     records
pat i ents shou   1 d
                                                               from   other ERs. All
                        be asked upon arri va 1 at an ER if they have sought
treatment elsewhere.


HCFA Conents


The above requirements are already part of the recordkeeping requirements

of the hospital . COPs and the NPRM. Section
requires patient medical records to contain 482.
                                            information
                                                 24(c) ofon
                                                          thethe patient'COPs
                                                               hospital
health history. Section 489. 24(d)(2)(B) of the NPRM would require a

  Page 2


  transferring hospital to provide the receiving facility with appropriate

  medical records  (or copies of them) of the examination and treatment
  furnished at the transferring hospital.
  termination , suspension and civil monetaryAdditionally, in view of the

                                               penalty and civil enforcement
  provisions of COBRA and the NPRM , we expect that hospitals will take

  appropriate measures to identify all transferred patients in order to

  protect themselves from litigation. For
                                            these reasons, we see no need to

  require hospitals to question ER patients upon
                                                        arrival.
 OIG Recommendation
 HCF A and the OCR shou   1 d pursue di rect   outreach to profess
 associations to increase awareness of the patient dumping i requirements
                                                             ona 1        and

 to stimulate reporting by health care professionals.


 HCF A    COrments

 We have already taken action to conduct direct outreach to professional

 associ at-ions to increase awareness and stimulate reports of non-compliance

 by professionals. Attached are copies of letters from Dr. Roper to the

 American Hospital Association, the Federation of American Health Systems,

 the National Association of Public Hospitals, the
                                                     Amrican Medical
 Association and the American Osteopathic Association.
                                                          Please note
 these associations have been requested to inform their members   aboutthat
                                                                         the

 COBRA provisions. Also attached is a copy of a letter signed by
Roper , Richard P. Kusserow , the Inspector General                  Dr.
                                                    , and to
Director of the Office for Civil Rights, sent directly    Audrey
                                                             the
 Morton
administrator of each Medicare participating hospital.
each hospital administrator has been advised that it is            In this letter
pertinent medical staff, including responsible physicians, 
       essential that all
                                                           nurses,
admitting clerks and ambulance attendants (where such services are run out

of the hospital) are reminded about their responsibilities and the

potenti a1 consequences of Yio1 ating    the anti-dumping law.
The above letters notified the health care provider
not tolerate cases of neg1 igence and del iberate     commnity that we wi
                                                  malfeasance
their assistance in preventing violations and notifying   HCFA and requested
                                                                of cases that

occur.
OIG Recomndation
HCFA should clarify the definitions of "
                                          stabi 1 ization" and lI'
condition" , as the Amrican College of Emergency Physicians emergent
done, in COBRA regu at ions
                   I
                             or
                     responsibi
                                through proposed 1 eg is 1 at ion in(ACEP)
                                                                      order
                                                                            has
                                                                             to
clarify physicians               ities under COBRA. Also, to the extent

possible, HCFA and OCR should coordinate to assure that the Department

uses a comn defini    tion of terms when enforcing the patient dumpi
provisions.
 Page 3


 HCFA Comments

We believe the definitions of "
to stabilize,
medical condition" contained in COBRA 
            abilized, " and " emergency
                                        (section l867(e)) and the NPRM

 (section 489. 24(b)) are sufficient to identify bonafide emergencies and

establish whether a transfer is
 appropriate. The
specific and detailed 

                                                    ACEP definitions are too

                        for this purpose. However , if public comments on

the NPRM indicate more elaboration is needed

definitions in the final rule.                , we will modify the


HCFA has coordinated with OCR in the development of the patient dumping

NPRM. HCFA  will , of course, follow the same procedure in developing the
final regulation.




At tachment
.... ,                                                                                                                    ::-




             DEPARTME T OF HEALTH &. HL'
                                         \\A' SERVICES                            h-=alt   Care F'na    ; A:- " s!- a!'

                                                                                  The Ad"n,n'S!ra:::r
                                                                                 W.sMlniton ,   DC 2:2::



           Carol McCarthy, Ph.
           President
           American Hospital Association
           840 N. Lake Shore Drive
           Chicago, DUnois 60611



          Dear Dr. McCarthy:

               I am writing to inform you of a letter I have sent
          hospitals participating in Medicare and Medicaid, and totoask
                                                                     the administrators of all
                                                                        your help in sharing its
          mesage with your members.

                 Th letter, also signed by Richard Kuserow, the Inspector General, and
          Audrey Morton, the Director of the
           anti-dumping" requirements and theOffice   for Civil of
                                                 consequences   Rights,  expains
                                                                   violating them.the statutory
          enclosed a copy of the letter for your                                    I have
                                                 information.
                 I know you share my concern that our citizens
         to which they are entitled under law. I hope 
      receive emergency       treatment
                                                      you wal
         effort so that your members wil be familiar with, andjoin mein a     COpeative
         requirements of the statute. By                       comply with, the
         dumping and the need to employ the
                                           working together, we should be able to prevent
                                               rather formidable enforcement mechanism
         decribed in the letter.
                 Thank you for your asistance.



                                                     e1Y ,




                                        wDlla       per. M.
                                            Administrator
         Enclosure
 DEPART.\\EST OF HEALTH &.     HL'.'..   S SERVICES                  Healt., Care F'r     a"::"i Ad



                                                                     r"e Admlnlstratc


                                     JJ I 5                          W8'''lnl!on   . C,   C, 2C2:r



Mr. Michael D. Bromberg
Executive Director
Federation of American Health Systems
Suite If
1111 19th Street, N. W.

Washington, D. C. 20036


Dear Mr

     I am writing to inform you of a letter I have sent to the administrators of all
hospitals participating in Medicare and Medicaid, and to ask your help in sharing its
message with your members.
       The letter, also signed ' by Richard Kusserow , the Inspetor General, and
Audrey Morton, the Director of the Office for Civil Rights, explains the statutory
 anti- dumping" requirements and the consequences of violating them. I have
enclosed a copy of the letter for your information.
      I know you share my concern that our citizens receive emergency treatment
to which they are entitled under law. I hope you wil join me in a cooperative
effort so that your members wil be familar with, and comply with, the
requirements of the statute. By working together, we should be able to prevent
dumping and the need to employ the rather formidable enforcement mechanism
described in the letter.
      Thk you for your asistance.
                                         Sincerel y ,



                              William L. Roper, M.D.
                                   Administrator
Enc:osure
...."..   (...                                                                    ..
                    DEPART,\\E:\T                 or HEALTH &. HL",1\1A SERVICES                                                    ;-ieal!;1 Care F,na"
                                                                                                                                                           E: to-=-   - S:' a: :­





                                                                                                                                   The Ad-         st:a
                                                                                                                                   Wasr1lgtc.;'    , DC. 2'::::
                                                                                           I 5 1983


                  Mr. Lary S. Gage
                  President
                  National Association of Public Hospitals

                  Suite 635

                  1001 Pennsylvania Avenue, N.
                  Washington, D. C. 20004



                 Dear Mr. Gage:


                      I am writing to inform you of a letter I have sent
                 hospitals participating in Medicare and Medicaid, and to                                  to the administrators
                                                                                                                                                all
                                                                                                                                                  ot


                 mesage with your members.
                                                                                                            ask YOUI help             in sharing its

                           The letter, also signed by Richard Kuserow, the Inspector General, and
                 Audrey Morton, the Director 

                                                                      ot   the Office        torCivil Rights, expains the statutory
                  anti-dumping" requirements and the consequences 

                                                                                                      otviolating them. I have
                 enclosed a copy             ot    the letter for your                  information.
                       I know you share my concern that OUl citizens receive emergency treatment
                 to which they are entitled under law. I hope
                                                              you will join me in a
                 effort so that your members will be tamiliar with, and comply with, the
                                                                                                                            coperative
                 requirements of the statute. By working together, we should be able to prevent

                 dUlnping and the need to employ the rather formidable enforcement
                                                                                                                                   mechanism
                 described in the letter.
                          Thnk you for your asistance.




                                                                      WWiam L. Roper, M.
                                                                              Administrator
                 Enclosure
    DEPART.\H.'\T OF HEAL TH &. HL'MA
                                                         SER\'CES                                     ""ea'   :are F'lna":'   J:-:-
                                                                                                                                      - s




                                                                                                       e Ad T"rlistra:cr
                                                                                                                      C.
                                                        JJ I 5 198                                    WashIngton , D.    2:'2::




 James H. Sammons, M.

 Executive Vice President
 American Medical Association
 535 North Dearborn Street
 Chicago, nUnois 60610



 Dear Dr. Sammons:
          I am writing to intorm you 

                                              ot    a letter I
 hospitals participating in Medicare and Medicaid, and to ask your help in sharingal1
                                                                 have sent to the administrators
                                                                                                                 ot
                                                                                   its
 mesage with your members.
          The letter, also signed by
                                Richard Kuserow , the Inspector General. and
Audrey Morton, the Director
                                the Office tor Civil Rights, explains the statutory
                                         ot
 anti-dumping" requirements and the consequences of violating them.
enclosed a copy 

                  the letter tor your intormation.
                              ot
                                                                        I have

         I know you share my concern that our citizenl receive
to which they are entitled under law. I hope 
               emergency treatment
eftort so that your members wil be           you will join me in a                                 coperative
                                    tamilar with, and comply with, the
requirem ents ot the statute. By working together,
                                                   we should be able to prevent
dumping and the need to employ the rather formidable enforcement
decribed in the letter.                                                                              mechanism

         Thank you tor your asistance.





                                         WWiam L. Roper, M.
                                                   Administrator
Enclosure
         ., ,                                                    \\:\:\                                          : -




                     DEP. RT,'\E:\T            Of HEALTH &0   Hl'.        S&:R\'          Heal!"   Care   ',na
                                                                                                                       ;; .::- - 5:' 0:   :-
'..-r:

                                                                                          Ti"e A1"" 'strat:
                                                                                          Wasrllngtor:    , DC 2::::
                                                                     wU I 5 19


                   Joseph W. Stella, D.
                   President
                  American Osteopathic Association
                  1736 Hamilton Street
                  Allentown, Pennsylvania 18104



                  Dear Dr. Stella:
                       I am writing to inform you of a letter
                 hospitals participating in Medicare and      I have sent to the administrators of all
                 message with your members.              Medicaid, and to uk your help in sharing its

                           The letter, also signed by
                 Audrey Morton, the Director of Richard
                                                the     Kuserow, the Inspector General,
                                                                                        and
                  anti-dumping" requirements and theOffice    for CivilofRights, explains the statutory
                                                        consequences
                 enclosed a copy of the letter for your                   Violating them. I have
                                                         information.
                            know you share my concern that our
                to which they are entitled under law. 

                                                           citizens receive emergency treatment
                effort so that your.
                                                      hope you will join me in a COperative
                                   members wil be familiar with, and
                requirements of the statute. By                       comply with, the
                                                working together, we should be able to prevent
                dumping and the need to employ the
                described in the                   rather formidable enforcement mechanism
                                            letter.
                         Thank you for your asistance.





                                                               o:n        fj'



                                                          WWi
                                                                Administrator
                Enclosure
.'   '"''   '' '




                        DEP, RT."'EST OF HEALTH 6;
                                                               SERVICES
( E
 "'..4"




                                                       June 15 , 1988




                   Dear Hospital Administrator:


                   ThiS letter concerns the legal requirement that Medicare

               participating hospitals with emergency departments provide emergency

               medical treatment to individuals as a condition of their Medicare

               provider agreement.


                   The Consolidated Omnibus Budget Recqnciliation Act of 1985 

               added a new section to the Social Security Act, Section 1867-- (COBRA)
               Responsibilities of Medicare Hospitals in Emergency Cases.
               provision establishes a statutory requirement that hospitals This
                                                                             with

               emergency departments provi de        appropri ate medi ca 1 screen i ng exami nat ions
               to all i ndi vi dua 1 s wi th   emergency medi ca 1 condi tions and a 11 women in
               active labor. They may       either stabilize the condition or provide a
              medically appropriate transfer to another facility when 

              the pa ti ent or the i r 1 ega 1 representati ve refuses       indicated, unless

              Although the statute applies to hos                      treatment  or transfer.
                                                            ls participating in Medicare,

              covers both Medi care and non- Medi care
                                                           ati ents. The Hea 1 th Care
              Financing Administration (HCFA) will terminate hospitals.        and the
              of Inspector General (OIG) may suspend hospi tal s                        Offi
              phys i c i ans from the Medi care program when               and exc 1 ude respons i b 1 e
              needed emergency care is violated. Further           rement to prov i de
                                                                   thi s reQui
                                                          . the OIG may levy civil

              monetary penalties of up to S50. 000 per incident against hospitals and

              responsible physicians who have violated the
              suffering personal harm and medical facilities suffering
                                                                      statute.
                                                                      Individuals
                                                                        financial
              can bring civil suit under State law against the offending hospitals.
loss
                      The Office for Civil Rights
              similar obligations contained in(OCR) is responSible for enforcing

                                               the Hill- Burton Act' s Comunity
              requirements. as well as other non-                               Service
                                                  discrimination statutes.
              receiving funds under the Hill- Burton Act of 1946 are requiredHospitals
                                                                              to provide

             emergency medi ca     1 serv ices based on need.

                  The professionalism of a hospital and its staff
                                                                   is the first and

             greatest protection  from harm any patient can receive. However
             negligence and deliberate malfeasance do Occur. We will not tolerate
                                                                              , cases of

             such cases. W. have directed our regional and field offices to enforce

             section 1867 and Hill- Burton Act Comunity Service
                                                                 requirements
             rigorously and also to work with State survey agencies and Peer Review

             Organizations. as appropriate. to investigate complaints Quickly and

             aggres s i ve I y .

                 Clearly our objectives are to prevent patient dumping and to stop 

             when it does occur. In meeting these objectives. it
                                                                  is imperative that

             you undertake certain actions to assist the Department of Health and Human

                                          (')



 Page 2 - Hospital Administrator



 Services. First, it is essential that you share this information with
pertinent medical staff , including responsible physicians, nurses,
      all
 admitting clerks and ambulance attendants where such services are run out

of the hospital , and remind them about their responsibilities and of the

potential consequences of violating the anti- dumping law.
                                                             Secondly, it is

imperative that you inform us of any situation where there may be a

suspected violation of the requirements for medical screening, stabilizing

treatment , or appropriate transfer so that we can initiate an
investigation. We have enclosed a list of the HCFA and OCR
                                                              regional
offi'ces, which will act. as the focal point on all initial complaints, and

a copy of the statute  for  your reference. You are to inform the

appropriate Regional Administrator of HCFA or OCR Regional Manager of any

viol ations as soon as you becom aware    of them.

    Together we must prevent violations of the law. We
                                                        are grateful to

you and your hospital staff for your immediate, continuing, and effective

response to this problem.


                                  Si ncere ly,


             , chard . Kusserow                            rey   . Morton
             Inspector General                               Director
                                                     Office for Civil Rights





                                  W, um    L.  per
                                   Administra or
                        Health Care Financing Administration


Enclosures
 -p,                    ..



                                 SOIAL SECURITY              Acr-   186ilci
                                                                                                        673




                  EXMINATION AND TREATMENT FOR
                                           
 EMERGENCY MEDICAL
                       CONDmONS AND WOMEN IN ACTVE
                                                                           LABOaJ88
       SEC. 1867.           (42 U.         C. 1395dd) (a)        MEDICAL
   REUIREMEN. fn the                  ca    of a hospital that has a hospitalScREENING
   cy department, if any individual (whether or not eligible for benefits
                                                                              emergen­
   under this title) comes to the emergency department and a
   made on the individual's behalf for examination or treatment    for is
                                                               reuest   a
  medical condition, the hospita
  medical screning examination withinmustthe
                                           provide  for of
                                              capabilty  anthe
                                                            appropriate
  emergency department to determine whether or not             hospital's
  medical condition (within the meaning of                an emergency

  to determine if the individual is in acive subsion (el( 1)) exists
  of subsion (e)(2)).                        labr (within the meaing
       (b) NECARY
               STABILIZING 'ITMEN FOR EMERGENCY MEDICAL
  CoNDmONS AND ACTVE LAR.

           (1) IN GENERL.-If any individual (whether or not eligible for
        benefits under           th
                               title) comes to a hospita and the
        determines that the individual has an                       hospital
                                                  emergency
        tion or is in active labor, the hospital must provide medical condi­
               (A) within the sttT and facilties avaiable ateither-
                                                               the
                                                                   hospital,
             for such further medical examination and such treatment     as
              may be reuire to stabilze the
              provide for treatment of the labor, ormedica condition or to
                (B) for transfer of the
              facilty in accordance with individual                        to another medical
           (2) RuSAL
                                                   subsion          (c).
                            '1  CONSENT '1 TREATMEN. -A hospital is deemed
                              uirement of paragaph (l)(A) with
       to meet the

       individual if         the hospital                             to an
                                          otTers the individual the further
                                                                                 repe
       medical exaination             and
       but the individual (or treatment desribe in that paragaph
                                           a-
                                   penon acting on the individual's
       behaf) refUl to consnt to the
         (31 RESA '1
                                     exaination or trtment.
                      CONSE '1 T8NSP. -A hospita is deemed to
      individua if the hospita paagph (1) with
       meet the             uirement of
                                 otTers to traer the individual to
                                                             to an
            I'pe
      another medca facilty in accrdance   with
      individua (or aa,. penon acting                      but the   subsion          (c)

      refus to conlent to the trafer. on the individual' s behalf)

   (c) RESClG TRNSFE UNTL PATIEN STABIUZE.
         (1) RULE. -If a patient at a hospital has an
       condition with has not ben stbilzed                              emergency medical
       subsion (e)(4)(B)) or is in active labor,(within the meaning of
                                                  the hospital
       tranfer the patient unles­                              may not
  -P, L 560.
                   1911i
                      8c
aR, Januarv I. f931c:.31.
     1. 5272. 19121Cbl,
                                  lUb8on

                           'Iso, .fIeci".
                                                , aplicaJ. to contr8 "'tarw
                                              AII
                                                                                  into or

 s. P. L. 5212. "OIidYd
                              Omnibl
      to 'M ,.poft to Co"1 onCDpJ..n
 -P, L, 550. '930cC:..' 1t1t DIt "
                                            8u     I, 1986.
                                                 IIncdi8tiDf ACt 01 IW"
                                                                                  , f9IZ1Idl.
                                                 186': 01 th. ACt: Vol II. p, i 49.             with

 -s ICI
                                          with f

               38,                 l8lly 1W""          , .n8C".     Oe     21. 191.
                           SOAL SECURITY        ACT-f I86ilel
                                                                                    675
                (B) acting as such an employee or under such a contract.
              has profesional responsibility for the provision of examina­
              tions or treatments for the individual.              or transfers of the
              individual. with respet to which the violation occurred.
            (3) CIVIL ENFORCEMENT.
                (A) PERSNAL HARN. -Any individual who suffers persnal
              harm as a diret     reult of   a participating hospital's violation
              of a reuirement of this setion may. in a civil action against
              the partcipating hospital. obtan thos daages
                                                                  available
              for persnal injury under the law of the State in which    the
                 ropriate.
              hospita is locte, and

                      LO
               (B) FINANCIAL
                                                such equitale relief as
                                        TO OTER MEDICAL PACILJ.    -Any
             medica facilty that suffers a financial
             of a participatig h08pital's violation los as a direc result
                                                     of a
             this leion may, in a civil action against thereuirement    of
                                                            participating
             hospita, obta thOl daages available for fmancia los,
          under the law of the State in which the hospita is locte,
          and such equitable relief as is appropriate.
             (C) LIMITATIONS ON AcrONS. No action may be brought
          under thi paraph more than two years after the date of

    (e) DEoNs. -In this repe
          the violation with         to which the acton is brought.
                             seion:
        (1) The term " emergency medica condition " mean a medical
      condition manifesting itslf by acte symptoms
      severity (includi severe pain) such tht the absnceofofsuffcient

                                                               immedi­
      ate medca attention could reasnably be
               (A) placing the patient's health in serious
                                                          expe to reult in-
               (B) serious imparment to
               (C) serious dysfunction of any
                                             boy functions,jeopardy,
                                                             or
                                                  boily organ or part.
           (2) The term " acive labr " mean
                                         labr at a time at which-
                (A) delivery is imminent,
              (B) there is inadequate time to effect sae
            another hOlpita prior to delivery, or                           tl"er
              (C) a. trfer may po a threat of the health and saety of
            th patient or th unborn   chd.
       (3) The term " pacipatig hospita" means'" hospita that
     ba entere into a provider agment under seon 1866Jt
       (4)A) The term "to ltbiliz" mea, with               to an       repe
     emergncy medica condition, to provide such medica treatment
     of the condition 81 may be necry to 8Iure, within reasnable
     medca   prilty,
     tion i8 li!y
                         tht no material deterioration of the condi­
                  to l'ult from the tranfer of the individua from
     facit                                                        a
       (B) the term " stiliz" means, with
     medica condition, that no material repe to an emergency
     tion is lily,      with renable medica
                                       deterioration of the condi­
                                             probailty, to reult
            trer
     from the             of the individua from a faciity.
          (5) The term " trasfer " means the movement (includig
     diha)                                                      the
                   of a patient outade a bOlpita' s facities at the
     direon of       any persn employed by
       orna; lIy "-Id i- "
 "'A8 in
                                                  (or afliate          or   aute,
 -PL. 991..
wi&l Ow   rallr'l8
            118951b..,. llrucll OUI "
                     oI&Iia 18 . efaciwe. if IU I8nl.
                                  an hu 11_' W
                                                   by ', 1.
                                                                 obli.... iU8r to
                                                              992'2,
                              HCFA REGIONAL ADM! NI STRA TORS


   ReQ i on 

                                                     ReQion VI
  John D. Kennedy

  Federal Building                                   J. D. Sconce
  Roo 1 309                                          1200 Ma     i n Tower Building
  Bos ton . Mas   sachusetts 02203                  Roo 2000
  (617) 565- 1188                                   Da 11 as .   Texas   75202
                                                    (214) 767- 6427
  ReQion II
                                                    ReQion VII
  Wi 11 iam   Toby
 26 Federa 1 Plaza                                  Gene Hyde

 Room 3811                                          New Federal Office Building

 New York . New York                                601 East 12th Street

                          10278                     Roo 235
 (212) 264- 4488
                                                    Kansas C1 ty. Mi s sour i
                                                                                 64106
 ReQion III                                         (816) 374- 5233

 Mauri ce Hartman                                  ReQi on    VII I
 3535 Market Stret

 Room 3100                                         Francis Ish1
 Phi ladelphia , Pennsylvania                      Federal Office Building

                              19101                1961 Stout Street
 (215) 596- 0324
                                                   Room 574
ReQion IV                                          Denver .   Colorado 80294
                                                   (303) 844-2111

George R. Ho I 1 and
101 Marietta Street                                ReQ10n IX
Su ite 701
Atlanta. Georgia 30312                             Robert D. O' Connor
(404) 331- 2333                                    100 Van Ness Avenue
                                                   14th Floor

                                                  San Franc1 sco,
ReQi on                                             California 94102

                                                  (415) 556-0254

Chester C. Stroyny

175 West Jackson Boulevard                        ReG10n X

Su 1 te A- 835
Chicago, Illinois 60604                           Joseph Anderson
(312) 353- 8507                                   2901 Th1 rd Avenue
                                                  Ma 11 Stop 502

                                                  Seattle, Washington 98121
                                                  (206) 442-0425

                                     REGIONAL MANAGERS

                                OFFICE FOR CIVIL RIGHTS

                          S. DEPARTMENT OF HEALTH & HUMAN SERVICES

   REG I ON I - BOSTON
                                                    REGION VI - DALLAS

  Caroline Chang

  Room 2403                                         Da vis    Sanders
  Corner of Cambridge & Sudbury                     Sui te    1360
  J. F. Kennedy Federa 1               Sts.         1200 Main Tower Bldg.
                            Bl dg.
  Governmen t Cen ter                               Dallas ,      TX 75202
  Boston , MA 02203                                 Commercial (214)          767-4056
  (617) 565-1340                                    FTS 8-729-4056

  FTS - 8-835-1340

  REG ION I I - NEW YORK
                                                    REGION VII - KANSAS CITY

 John Gomez

 Sui te   3312                                     Loi s V.     Carter
 Jacob Javitz Bldg.                                Sui te 248
 26 Federal Plaza                                  601 East 12th Street

 New York, NY 10278                                Kansas City, MO 64106
 Commercial (212) 264-3313                         Commercial (816) 426-7277
 FTS - 8-264-3313                                  FTS 8-867-7277


 REG ION I I   I-   PHILADELPHIA
                                                   REGION VIII - DENVER

 Pau 1   Cushing
 Room 6300                                         Vada Kyle-Holmes
 Ga teway   Bui 1di                                Sui te   840
 3535 Market Street                                1961 Stout Street
 Phi lade Iph ia   , PA 19101                      Denver ,   CO 80294
Commercial (215) 596-5831                         Commercial (303) 844-2024
FTS - 8-596-1262                                  FTS 8-564-2024
REGION IV - ATLANTA

                                                  REG ION
Marie Chretien
                                                            IX - SAN FRANCI
                                                                                 sca
Suite 1502                                        Virginia Apodaca
101 Marietta Street                               Room 322
Atlanta, GA 30323                                 50 Uni ted      Ha tion
                                                                   s Plaza
Commercia 1 (404) 331-5948                        San Francisco , CA  94103
FTS 8-242-2779                                    Commercial (415) 556-8586
                                                  FTS 8-556-8586

REGION V - CHICAGO

                                                  REGION X - SEATTLE

Charlot te Irons

33rd Floor                                        Carmen Rockwell
300 South Wacker Drive                           Room 570
Chicago   , IL 60606
Commercia 1 (312) 886-2300
                                                 2901 3rd Avenue
                                                 Seattle, WA 98121
FTS 8-886-2359                                   Commercial (206) 442-0473

                                                 FTS 8-399-0473
                                               ENDNOTES

       George J. Annas, " Your Money or Your Life: ' Dumping ' Uninsured Patients
       Hospita Emergency War,
                                                                                               frm
                                         American Journal of Public Health, 

                                                                                  76 (Januar    1986),
       75.

       David A. Ansell and Roben L. Schiff, " Patient Dumping: Status, Implications, and
       Policy Recommendations, Journal of the American Medical Associatin,
                                                                                          257 (Marh
       1987), 1500.



       J. Lawrnce, " Medcal Expens Say Government Could Reduce ' Patient Dumping
       The Associated Press,   July 23, 1987.



       Michael A. Dowell, " Indigent Access to Hospita Emergency Room Servces,
                                                                               Clearn­
       ghouse Review, 18 (October 1984), 483-499.


       Inortion on States ' initiatives in the ara of patient dumping is
                                                                         bas on Dowell, op.
       cit., 483- 499, and Judith G. Waxan and Sta Dom, " States Take the Lead in
       ing Patient Dumping , It Clearinghouse Review,
                                                                                  Prvent-
                                                       Vol. xx, No.             , June 1988.

       Caiforna Health and     Safety Code, Chapter 1225, s 1317 et seq.

      Health and Safety Coe,     1317.

      Mich. Stat. Ann. 14. 15(20715).

      Uta Co An. 216-8-2(12).
10.   Wis. Stat. An 146. 301.

11.   Tex. Health and Safety Cod Ann. 4438.

12.   Unite Stas Gener Accountig Offce, " Health Car: Patient Trasfers frm
                                                                           Emer­
      gency Rooms to D. C. Gener Hospita " Apri 1987.

13.   See Amcan College of Emergency Physicians, " Guidelies for Trasfer of Patients,
      Anals of Emgency Medcine, December 1985, 125­

14.   See Amercan College of Emergency Physicians, "Defition of Emergency Medcie,
      10 Annals of Emergency Medcie 385, 385- 88 (1981).

15.      U. Hielstein, S. Woolhandler, et al., "Patient Trasfer: Medcal Prtice
                                                                               as So­
      cial Triage, Amrican Jouml of Public Health,    74 (1984), 494-97.
                                       ,"




16.   R.L. Schiff, D. A. Ansell, et al., " Transfers to a Public Hospita: A Prospective   Study of
      467 Patients, New England Journal of Medicine,        314 (1986), 552- 557.

17.   Ansell and Schi provide a more precise estimate in a later arcle of $1. 04 billion an­
      nually in total costs shited to the public sector frm the private sector due to patient
      trsfers. See Ansell and Schi Patient Dumping: Status, Implications, and Policy
      Recommendations, Journal of American Medical Association,         257 (Mach 1987),
      1500- 1502.

18.   Data extrte frm Dowell, " Indigent Access to Hospita Emergency Room Serces,
      Clearnghouse Review 
 (October 1984) and Judith G. Waxan and Sta Dom, " States
      Take the Lead in Prventig Patient Dumping, " Clearghouse Review, Vol.          xx,
                                                                                   No.
      2, June 1988.
